 FEDERAL BUREAU OF PRISONS
ANNUAL FINANCIAL STATEMENTS
     FISCAL YEAR 2010
       U.S. Department of Justice
     Office of the Inspector General
              Audit Division

          Audit Report 11-14
            January 2011
               FEDERAL BUREAU OF PRISONS
              ANNUAL FINANCIAL STATEMENTS
                    FISCAL YEAR 2010

               OFFICE OF THE INSPECTOR GENERAL
                  COMMENTARY AND SUMMARY

      This audit report contains the Annual Financial Statements of the
Federal Bureau of Prisons (BOP) for the fiscal years (FY) ended
September 30, 2010, and September 30, 2009. Under the direction of the
Office of the Inspector General (OIG), KPMG LLP performed the BOP’s audit
in accordance with U.S. generally accepted government auditing standards.
The audit resulted in an unqualified opinion on the FY 2010 financial
statements. An unqualified opinion means that the financial statements
present fairly, in all material respects, the financial position and the results
of the entity’s operations in conformity with U.S. generally accepted
accounting principles. For FY 2009, the BOP also received an unqualified
opinion on its financial statements (OIG Report No. 10-18).

      KPMG LLP also issued reports on internal control and on compliance
and other matters. For FY 2010, the Independent Auditors’ Report on
Internal Control over Financial Reporting identified no deficiencies in internal
control. In the FY 2010 Independent Auditors’ Report on Compliance and
Other Matters, the auditors identified no instances of non-compliance with
laws and regulations and the Federal Financial Management Improvement
Act of 1996.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on the BOP’s financial statements,
conclusions about the effectiveness of internal control, conclusions on
whether the BOP’s financial management systems substantially complied
with the Federal Financial Management Improvement Act of 1996, or
conclusions on compliance with laws and regulations. KPMG LLP is
responsible for the attached auditors’ reports dated November 4, 2010, and
the conclusions expressed in the reports. However, our review disclosed no
instances where KPMG LLP did not comply, in all material respects, with
U.S. generally accepted government auditing standards.
This page intentionally left blank.
               FEDERAL BUREAU OF PRISONS
              ANNUAL FINANCIAL STATEMENTS
                    FISCAL YEAR 2010

                           TABLE OF CONTENTS

                                                                               PAGE

MANAGEMENT’S DISCUSSION AND ANALYSIS..........................................3

INDEPENDENT AUDITORS’ REPORTS

   REPORT ON FINANCIAL STATEMENTS ............................................... 25

   REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING ........... 27

   REPORT ON COMPLIANCE AND OTHER MATTERS................................ 31

PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES

   CONSOLIDATED BALANCE SHEETS ................................................... 34

   CONSOLIDATED STATEMENTS OF NET COST ..................................... 35

   CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION ............ 36

   COMBINED STATEMENTS OF BUDGETARY RESOURCES ....................... 38

   NOTES TO THE PRINCIPAL FINANCIAL STATEMENTS .......................... 39

REQUIRED SUPPLEMENTARY INFORMATION SCHEDULES

   CONSOLIDATED DEFERRED MAINTENANCE ....................................... 73

   COMBINING STATEMENTS OF BUDGETARY RESOURCES
     BROKEN DOWN BY MAJOR BUDGET ACCOUNT............................... 74

OTHER ACCOMPANYING INFORMATION ................................................. 79
This page intentionally left blank.
U.S. DEPARTMENT OF JUSTICE

     BUREAU OF PRISONS
         MANAGEMENT’S
      DISCUSSION & ANALYSIS
           (UNAUDITED)




               -1-
This page intentionally left blank.




               -2-
                                 U.S. Department of Justice
                                     Bureau of Prisons
                             Management’s Discussion & Analysis


MISSION

It is the mission of the Federal Bureau of Prisons to protect society by confining offenders in the
controlled environments of prisons and community-based facilities that are safe, humane, cost-
efficient, and appropriately secure, and that provide work and other self-improvement
opportunities to assist offenders in becoming law-abiding citizens.

ORGANIZATION STRUCTURE

The Bureau of Prisons (BOP) encompasses the activities of the Trust Fund and appropriated
activities. It does not include the Federal Prison Industries, Inc. (FPI) (also called UNICOR)
which is a separate reporting component of the Department of Justice (DOJ).

As of September 30, 2010, the BOP was comprised of 116 institutions, six regional offices, two
staff training centers, 28 community corrections offices, and a Central Office, or headquarters, in
Washington, D.C. The Executive Office of the Director provides overall direction for agency
operations, with nine central office divisions, each led by a member of the BOP’s Executive
Staff, providing operational and policy direction. The Central Office manages the security and
correctional operations of the BOP, the medical and psychiatric programs, and food and
nutritional programs. Additionally, the Central Office plans for the acquisition, construction,
staffing of new facilities, oversees budget development and execution, contracting, property
management, and financial management. Additional operational support and direction are
provided for community corrections and detention programs, legal counsel, public affairs,
information resources, and human resources management.

The National Institute of Corrections (NIC), one of the BOP’s Salaries and Expenses
activities, provides technical assistance and training for state and local correctional agencies
across the nation. The NIC supports the BOP’s goal of building partnerships with community,
state, local, and other entities. The Program Review Division (PRD) performs oversight over
the BOP's programs through a rigorous review process that measures program effectiveness and
adequacy of internal controls. The Administration Division (ADM) provides resources and
support for the BOP to perform effectively and efficiently. This includes the development of
budget requests, the stewardship of financial resources, and procurement and property
management; the coordination and analysis of information related to capacity; the selection of
sites for new prison construction; the design and construction of new correctional facilities; and
the renovation and maintenance of existing facilities. The Correctional Programs Division
(CPD) develops activities and programs designed to appropriately classify inmates, eliminate

     U.S. Department of Justice
                                               -3-
inmate idleness, and develop the skills necessary to facilitate the successful reintegration of
inmates into their communities upon release. The Health Services Division (HSD) has
responsibilities in medical care, safety and environmental health, and food services. The health
care mission is to deliver necessary health care to inmates. The occupational safety and
environmental health mission is to provide a safe and healthy environment for staff and inmates.
The food service mission is to provide healthy and appetizing meals that meet the needs of the
general population. The Human Resource Management Division (HRMD) is designed to
oversee and administer personnel policy and programs developed to address the needs of Bureau
employees covering all areas of personnel management. The Industries, Education, and
Vocational Training Division (IE&VT) encompasses the FPI program and the Bureau's
Education and Inmate Transition Program. The Education Branch oversees the Bureau's
recreation programs and the Bureau's education and vocational training programming. The
Inmate Transition Branch works to enhance inmates' post-release employment opportunities and
also oversees the Bureau's Volunteer Management Program. The Information, Policy and
Public Affairs Division (IPPA) collects, develops, and disseminates useful, accurate, and timely
information to BOP staff, DOJ, Congress, other government agencies, and the public. The
Office of General Counsel (OGC) provides effective legal advice, assistance, and representation
to officials of the Federal Bureau of Prisons.

The Trust Fund was created in the early 1930s to allow inmates a means to purchase additional
products and services above the necessities provided by appropriated Federal funds (e.g.,
personal grooming products, snacks, postage stamps, and telephone services). The Trust Fund is
a self-sustaining trust revolving fund account that is funded through sales of goods and services
to inmates.

The BOP is subdivided into six geographical regions (see Attachment A), each managed by a
Regional Director. Regions are staffed with personnel who provide operational guidance and
support to the field locations in management and administrative areas such as financial
management, budgeting, technical assistance, personnel, and correctional management.

In the fiscal year 2010, the BOP operated 116 institutions spanning four main security levels in
its efforts to provide secure and cost effective housing to a broad spectrum of offenders.
Institutions are assigned a security classification based in part on the physical design of each
facility. The four security levels are minimum, low, medium, and high. In addition,
administrative facilities are institutions with special missions, including: detention of non-
citizen or pretrial offenders, treatment of inmates with serious or chronic medical problems, and
containment of extremely violent or dangerous inmates. Administrative facilities are capable of
housing inmates of all security categories.




     U.S. Department of Justice
                                              -4-
FINANCIAL STRUCTURE

The BOP was provided two appropriations by Congress for fiscal year 2010: Salaries and
Expenses and Buildings and Facilities. The Salaries and Expenses (S&E) portion includes
annual and multi-year appropriations, while Buildings and Facilities (B&F) is a no-year
appropriation. The Trust Fund receives spending authority from offsetting collections for
revenue earned through the sale of goods and services.

The S&E appropriations are annual and multi-year appropriations that support costs associated
with the care and custody of all Federal offenders in Federal institutions and contract facilities,
and the maintenance and operational costs associated with the upkeep of Federal facilities,
regional offices, staff training centers, and administrative offices.

The B&F appropriation is a no-year appropriation that supports site planning, acquisition, and
construction of new facilities. The B&F appropriation also supports the remodeling, renovating,
and equipping of existing facilities for penal and correctional use.

ANALYSIS OF FINANCIAL STATEMENTS

Highlights of the financial and budgetary information presented in the financial statements
follows.

Assets: The BOP’s Consolidated Balance Sheets as of September 30, 2010, shows $7.988
billion in total assets, a decrease of $58 million from the previous year’s total assets of $8.046
billion. General Property, Plant and Equipment, Net was $6.335 billion, which represents 79
percent of total assets.

Liabilities: Total BOP liabilities were $1.876 billion as of September 30, 2010, an increase of
$208 million from the previous year’s total liabilities of $1.668 billion. Actuarial FECA
liabilities were $736 million and Accounts Payable was $422 million, which represents 39
percent and 22 percent of total liabilities respectively.

Net Cost of Operations: The Consolidated Statements of Net Cost presents the BOP’s gross
and net cost by strategic goals 2 and 3. The net cost of the BOP’s operations totaled $6.656
billion for the fiscal year ended September 30, 2010, an increase of $433 million (7 percent)
from the previous year’s net cost of operations of $6.223 billion.




     U.S. Department of Justice
                                               -5-
Consistent with the Government Performance and Results Act (GPRA), the BOP has a formal
strategic planning process that feeds into the Department’s strategic plan. The BOP sets goals,
measures performance, and reports annually on its actual performance compared to its goals.
The Office of Management and Budget (OMB) Circular A-136 and the Statement of Federal
Financial Accounting Standard (SFFAS) No. 15, “Management’s Discussion and Analysis –
Standards,” require agencies to present the most significant performance measures related to
information on major goals from the agency’s strategic plan. Reported measures are also linked
to the DOJ Strategic Goal 2, “Prevent Crime, Enforce Federal Laws, and Represent the Rights
and Interests of the American People,” and Strategic Goal 3, “Ensure the Fair and Efficient
Administration of Justice.” Tables 1 and 2 summarize the activity on the BOP’s Consolidated
Statements of Changes in Net Position and Consolidated Statements of Net Cost. The tables
show the funds provided to the BOP for the fiscal years ended September 30, 2010 and 2009 for
the purpose of achieving the strategic goals.




     U.S. Department of Justice
                                             -6-
                               Table 1. Source of BOP Resources
                                    (Dollars in Thousands)

                             Source                                    FY 2010           FY 2009         Change %
Earned Revenue                                                       $   372,199       $   357,601          4%
Budgetary Financing Sources
 Appropriations Received                                                 6,205,386          6,176,599       0%
 Appropriations Transferred-In/Out                                            (818)            (8,035)     -90%
Other Financing Sources
 Donations and Forfeitures of Property                                       340                   68     400%
 Transfers-In/Out Without Reimbursement                                    5,394               14,773     -63%
 Imputed Financing From Costs Absorbed by Others                         216,705              189,665      14%
Total                                                                $ 6,799,206       $    6,730,671       1%



                            Table 2. How BOP Resources are Spent
                                     (Dollars in Thousands)

                        Strategic Goal (SG)                              FY 2010           FY 2009       Change %
SG 2: Prevent Crime, Enforce Federal Laws, and Represent the
Rights and Interests of the American People
                                                       Gross Cost    $       6,860     $        6,987
                                            Less: Earned Revenue                   -                 -
                                                         Net Cost    $       6,860     $        6,987      -2%

SG 3: Ensure the Fair and Efficient Administration of Justice
                                                      Gross Cost     $ 7,021,759       $    6,573,615
                                           Less: Earned Revenue          372,199              357,601
                                                         Net Cost    $ 6,649,560       $    6,216,014      7%
                                                 Total Gross Cost    $ 7,028,619       $    6,580,602
                                      Less: Total Earned Revenue         372,199              357,601
                                      Total Net Cost of Operations   $ 6,656,420       $    6,223,001      7%




 U.S. Department of Justice
                                                      -7-
2010 Financial Highlights

Strategic Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and
Interests of the American People

Strategic Goal 2, Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests
of the American People, includes preventing, suppressing and intervening in crimes against
children. The Adam Walsh Child Protection and Safety Act (Walsh Act) includes a provision for
the civil commitment of sexually dangerous persons due for release from BOP custody. To
initiate court commitment proceedings, the BOP must certify the inmate as a “sexually
dangerous person” as specified in the statute. The BOP does not have an existing performance
measure for its Walsh Act efforts.

Strategic Goal 3: Ensure the Fair and Efficient Administration of Justice

Strategic Goal 3, Ensure the Fair and Efficient Administration of Justice, includes maintaining
secure, safe, and humane correctional institutions for sentenced offenders placed in custody. The
BOP develops and operates correctional programs that seek a balanced application of the
concepts of punishment and deterrence with opportunities to prepare the offender for successful
reintegration into society. Through the NIC, the BOP provides assistance to international,
Federal, state, and local correctional agencies. The BOP conducts its incarceration function
using a range of the BOP operated institutions of varying security levels, as well as the use of
privately operated facilities, which includes half-way houses. In addition, the BOP houses all
Washington, D.C. adult felons sentenced to a term of confinement. In FY 2010, Goal 3 net costs
increased by 7 percent. This is due primarily to the 1,468 increased number of inmates in the
BOP’s custody.




     U.S. Department of Justice
                                              -8-
PERFORMANCE INFORMATION

Data Reliability And Validity

The BOP views data reliability and validity as critically important in the planning and
assessment of our performance. As such, this document includes a discussion of data validation,
verification, and any identified data limitations for each performance measurement presented.
Each reporting component ensures that data reported meets the following criteria:

       At a minimum, performance data are considered reliable if transactions and other
       data that support reported performance measures are properly recorded,
       processed, and summarized to permit the preparation of performance information
       in accordance with criteria stated by management. Performance data need not be
       perfect to be reliable, particularly if the cost and effort to secure the best
       performance data possible will exceed the value of any data so obtained.


FY 2010 REPORT ON SELECTED RESULTS

STRATEGIC GOAL 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights
and Interests of the American People. .1 percent of the BOP’s Net Costs support this Goal.

STRATEGIC GOAL 3: Ensure the Fair and Efficient Administration of Justice.
99.9 percent of the BOP’s Net Costs support this Goal.




     U.S. Department of Justice
                                             -9-
Performance Measure: Percent of System-wide Crowding in Federal Prisons (% over rated
capacity)

Background/Program Objectives: The BOP constantly monitors and reports weekly on facility
capacity, population growth, and prisoner crowding. As federal inmate population levels are
projected to increase and continue to exceed the rated capacity of the BOP, every possible action
is being taken to protect the community, while keeping institutional crowding at manageable
proportions to ensure that federal inmates continue to serve their sentences in a safe and humane
environment.




FY 2010 Target: 40%
FY 2010 Actual: 37%

Discussion of FY 2010 Results: During FY 2010, the BOP population increased by a net of
1,468 inmates. Capacity was added as a result of the final phase of activation at FCI Pollock, LA
and the start of the activation at FCI McDowell, WV. As a result, the BOP was able to reach the
target for rated capacity and system-wide crowding.




     U.S. Department of Justice
                                             -10-
Data Definitions: The crowding levels are based on a mathematical ratio of the number of
inmates divided by the rated capacity of the institutions at each of the specific security levels.
The percent of crowding represents the rate of crowding that is over rated capacity. For
example, if an institution had a number of inmates that equaled the rated capacity, this would
represent 100% occupancy, which equals 0% crowding. Any occupancy above 100% represents
a percentage of crowding. System-wide: represents all inmates in BOP facilities and all rated
capacity, including secure and non-secure facilities, low, medium, and high security levels, as
well as administrative maximum, detention, medical, holdover, and other special housing unit
categories. Minimum security facilities: non-secure facilities that generally house non-violent,
low risk offenders with shorter sentences. These facilities have limited or no perimeter security
fences or armed posts. Low security facilities: double-fenced perimeters, mostly dormitory
housing, and strong work/program components. Medium security facilities: strengthened
perimeters, mostly cell-type housing, work and treatment programs and a lower inmate-to-staff
ratio than low security facilities. High security facilities: also known as U.S. Penitentiaries,
highly secure perimeters, multiple and single cell housing, lowest inmate-to-staff ratio, close
control of inmate movement.

Data Collection and Storage: Data are gathered from several computer systems. Inmate data are
collected on the BOP on-line system (SENTRY). The BOP also utilizes a population forecast
model to plan for future contracting and construction requirements to meet capacity needs.

Data Validation and Verification: Subject matter experts review and analyze population and
capacity levels daily, both overall and by security level. BOP institutions print a SENTRY
report, which provides the count of inmates within every institution cell house. The report
further subdivides the cell houses into counting groups, based on the layout of the institution.
Using this report, institution staff conduct an official inmate count five times per day to confirm
the inmate count within SENTRY. The BOP Capacity Planning Committee (CPC), comprised of
top BOP officials, meets bi-monthly to review, verify, and update population projections and
capacity needs for the BOP. Offender data are collected regularly from the Administrative
Office of the U.S. Courts by the BOP Office of Research and Evaluation in order to project
population trends. The CPC reconciles bed space needs and crowding trends to ensure that all
available prison space is fully utilized, both in federal prisons and in contract care.

Data Limitations: None known at this time.




     U.S. Department of Justice
                                              -11-
Performance Measure: Ensure Zero Escapes from Secure BOP Facilities

Background/Program Objectives: The BOP significantly reduces the possibility of escape with
long-term emphasis on security enhancements, physical plant improvements, enhanced training,
and increased emphasis on staff supervision of inmates. In the event an escape does occur, the
BOP will initiate immediate apprehension activities (escape posts, etc.) within the community,
until the outside agency having jurisdiction assumes investigative and apprehension
responsibilities.




FY 2010 Target: 0
FY 2010 Actual: 0

Discussion of FY 2010 Results: During FY 2010, the BOP had no escapes from secure BOP
facilities.

Data Definitions: All BOP institutions are assigned a security classification level based in part
on the physical design of each facility. There are four security levels: minimum; low; medium;
and high. Additionally, there is an administrative category for institutions that house a variety of
specialized populations such as pre-trial, medical, mental health, sex offenders, and U.S.
Department of Homeland Security, Immigration and Customs Enforcement (ICE) detainees.
Low, medium, and high security levels and administrative institutions are defined as “secure,”
based on increased security features and type of offenders designated.




     U.S. Department of Justice
                                               -12-
Data Collection and Storage: Data for this measure are taken from the Significant Incident
Reports submitted by the institution where the incident occurred. This has become an automated
process, which went nationwide in August of 2009, known as the TruIntel system. The data is
captured in data sets and made available to the Office of Research and Evaluation, which
analyzes the data and makes the escape information available through the Management Analysis
Portal, specifically the Institution Management Dashboard.

Data Validation and Verification: The most senior managers in the agency conduct annual
reviews of institution performance including escapes. Additionally, during Program Reviews
(which are conducted at least every three years), annual operational reviews, and Institution
Character Profiles (which are conducted every three years), reviews of escapes (including
attempts) are conducted, along with other inmate misconduct.

Data Limitations: None known at this time.




     U.S. Department of Justice
                                             -13-
Performance Measure: Inspection Results - Percent of Federal Facilities with American
Correctional Association (ACA) Accreditations

Background/Program Objectives: The BOP has the highest regard for human rights and public
safety. Therefore, it strives to maintain facilities that meet the accreditation standards of several
professional organizations including the ACA. ACA auditors conduct on-site visits to BOP
institutions during initial accreditation and re-accreditations. Institutions’ ACA accreditation
must be renewed tri-annually.




FY 2010 Target: 99%
FY 2010 Actual: 99%

Discussion of FY 2010 Results: One hundred fourteen of the BOP’s one hundred fifteen prisons
eligible to participate in the reaccreditation program maintained their accreditation. FCI Loretto,
PA participated in an accreditation audit in September 2010, and is expected to be granted re-
accreditation at ACA’s January 2011 Winter Conference. In the latter part of September 2010,
FCI McDowell, WV began activating but is not yet eligible for initial accreditation. New
institutions are not considered eligible for accreditation status until approximately 2 years after
initial activation.




     U.S. Department of Justice
                                               -14-
Data Definitions: Initial ACA Accreditation is awarded when an institution demonstrates 100%
compliance with mandatory ACA standards, and substantial compliance with nonmandatory
ACA standards. The BOP’s policy requires all institutions to maintain ACA Accreditation.

Data Collection and Storage: Once an audit is completed, an electronic report is received from
ACA. These reports are maintained in GroupWise shared folders by institutions, and in
WordPerfect files.

Data Validation and Verification: On an annual basis, Program Review personnel develop a
schedule for initial accreditation and re-accreditation of all eligible BOP facilities to ensure
reviews are conducted on a regular and consistent basis. BOP policy requires institutions to
initially be ACA accredited within two years of activation. Therefore, non-accredited
institutions that have been activated for less than two years are excluded from calculations
regarding this performance measure.

Subject matter experts review report findings to verify accuracy and develop any necessary
corrective measures. The ACA accreditation meeting minutes, identifying the institutions
receiving accreditation and re-accreditation, are now on file and maintained by the BOP
Accreditation Manager.

Data Limitations: None known at this time.




     U.S. Department of Justice
                                             -15-
Performance Measure: Rate of Serious Assaults in Federal Prisons

Background/Program Objectives: Every reasonable precaution is taken to ensure that inmates
are provided with a safe and secure environment in facilities according to their needs. While it is
the objective of the DOJ and BOP to eliminate all assaults, the target reflects projections based
on historical data and observed trends. This data represents the rate of adjudicated, inmate on
inmate serious assaults over a twelve month period, per 5,000 inmates. Due to the time required
to adjudicate allegations of assault, there is a lag between the occurrence of the incident and
reporting of guilty findings. Accordingly, the figure reported represents guilty findings for
incidents that occurred during the twelve month period ending the last month of the previous
quarter.




FY 2010 Target: 16/5,000
FY 2010 Actual: 13/5,000

Discussion of FY 2010 Results: The FY 2010 target was met. The actual rate of serious assaults
was 13 per 5,000 inmates, lower than the target rate of 16 per 5,000 inmates for FY 2010.

Data Definition: Reported assault rate is based on guilty findings of serious assaults. Serious
assaults involve serious physical injury being attempted or carried out by an inmate. They
include sexual assaults as well as armed assaults on the institution’s secure perimeter.




     U.S. Department of Justice
                                              -16-
Data Collection and Storage: Data is collected from the BOP’s operational computer system
(SENTRY), specifically the Chronological Disciplinary Record (CDR) module, which records
all disciplinary measures taken with respect to individual inmates. This data is maintained and
stored in the BOP’s management information system (Key Indicators and the Institution
Management Dashboard), which permits retrieval of data in an aggregated manner. The data
represents guilty findings of serious inmate on inmate assaults.

Data Validation and Verification: The most senior managers in the agency conduct annual
reviews of institution performance including assaults and other misconduct. Additionally, during
Program Reviews (which are conducted at least every three years), annual operational reviews,
and Institution Character Profiles (which are conducted every three years), reviews of assaults
and other misconduct patterns are accomplished. The SENTRY system is the BOP’s operational
data system, whereas Key Indicators aggregates the SENTRY data and provides an historical
perspective.

Data Limitations: The data represents the number of guilty findings for assaults over a twelve-
month period per 5,000 inmates. Due to the time required to adjudicate allegations of assault,
there is a lag between the occurrence of the assault and reporting of guilty findings. Due to
accelerated reporting requirements (within 15 days of quarter and fiscal year end) and to provide
a more accurate assault rate, the BOP is using 12 months of completed/adjudicated CDR data for
each quarter and end of fiscal year reporting, showing 12 month periods ending the last month of
the previous quarter.




     U.S. Department of Justice
                                             -17-
ANALYSIS OF SYSTEMS, CONTROLS AND LEGAL COMPLIANCE

Federal Managers’ Financial Integrity Act of 1982

The Federal Managers’ Financial Integrity Act of 1982 (Integrity Act or FMFIA) provides the
statutory basis for management’s responsibility for and assessment of internal accounting and
administrative controls. Such controls include program, operational, and administrative areas, as
well as accounting and financial management. The Integrity Act requires Federal agencies to
establish controls that reasonably ensure obligations and costs are in compliance with applicable
law; funds, property, and other assets are safeguarded against waste, loss, unauthorized use, or
misappropriation; and revenues and expenditures are properly recorded and accounted for to
maintain accountability over the assets. The Integrity Act also requires agencies to annually
assess and report on the internal controls that protect the integrity of Federal programs (FMFIA
Section 2) and whether financial management systems conform to related requirements (FMFIA
Section 4).

Guidance for implementing the Integrity Act is provided through OMB Circular A-123. In
addition to requiring agencies to provide an assurance statement on the effectiveness of
programmatic internal controls and conformance with financial systems requirements, the
Circular requires agencies to provide an assurance statement on the effectiveness of internal
control over financial reporting. The Department requires components to provide both of the
assurance statements in order to have the information necessary to prepare the agency assurance
statements.

FMFIA Assurance Statement

The Director of the BOP provides Reasonable Assurance that management controls and financial
systems met the objectives of Sections 2 and 4 of the FMFIA.

Controls

The BOP has a management control and financial management systems review program as
required by the FMFIA. The PRD facilitates, monitors, and evaluates the BOP’s implementation
of the FMFIA by coordinating management assessments, thereby providing a quality assurance
mechanism for the program review process. The PRD conducts reviews for all BOP programs
that examine compliance with laws, regulations, and policy. In addition, reviews examine the
adequacy of controls, efficiency of operations, and effectiveness in achieving program results.
During fiscal years 2010 and 2009, 32 and 34 Financial Management Program Reviews were
conducted at field sites and the Central Office, respectively. The reviews covered the areas of
Accounting, Budgeting, Laundry, Employee Organizations, Property Management, Commissary,
and Warehouse.


     U.S. Department of Justice
                                             -18-
Systems

For fiscal year 2010, the BOP’s official reports were generated from the Financial Management
Information System (FMIS) General Ledger, Cost Reporting, and Expenditure and Allotment
reporting facilities. The FMIS General Ledger is supported by the following other systems:
SENTRY Property Management System; SENTRY Real Property Management System; Trust
Fund Accounting and Commissary System; and National Finance Center Payroll System.

Improper Payments

The Improper Payments Information Act (IPIA) requires a risk assessment in all programs to
identify those that are susceptible to significant erroneous payments. Significant erroneous
payments are defined by the OMB as annual erroneous payments in a program exceeding both
2.5 percent of program payments and $10 million. Based on risk assessment comprised of
Independent Audit Reports and Internal Control Reviews, in FY 2010, the BOP has determined
there were no significant risk programs in which improper payments exceed both 2.5 percent of
program payments and $10 million.

FMFIA Section 2 – Material Weaknesses

Management of the Bureau of Prisons is responsible for establishing and maintaining effective
internal control and financial management systems that meet the objectives of the FMFIA. The
BOP assessed its internal control over the effectiveness and efficiency of operations and
compliance with the applicable laws and regulations in accordance with OMB Circular A-123,
Management’s Responsibility for Internal Control, as required by Section 2 of the FMFIA.
Based on the results of this assessment, the BOP can provide reasonable assurance that its
internal control over the effectiveness and efficiency of operations and compliance with
applicable laws and regulations as of September 30, 2010, was operating effectively, except for
one material weakness of system-wide prison crowding.

Although the performance measure for Prison crowding was below the target, the BOP continues
to report it as a FMFIA Section 2 Material Weakness. The BOP manages the continually
growing Federal inmate population by contracting with the private sector and using State and
local facilities for certain groups of low-security inmates, expanding existing institutions, and
building new facilities. The continued use of these approaches is expected to allow the BOP to
keep pace with the growing inmate population and gradually reduce the crowding rate, thereby
ensuring safe and secure operations in facilities housing Federal inmates.




     U.S. Department of Justice
                                             -19-
FMFIA Section 4 – Material Nonconformances

The BOP management is responsible for ensuring compliance with applicable laws and
regulations. To ensure compliance, reviews are performed as discussed above. Specifically, the
BOP performed a review of its financial management systems pursuant to Section 4 provisions
of the FMFIA. No significant financial management non-conformance was found in this review.


Federal Financial Management Improvement Act of 1996

The Federal Financial Management Improvement Act of 1996 (FFMIA) was designed to
improve Federal financial and program managers’ accountability, provide better information for
decision-making, and improve the efficiency and effectiveness of Federal programs. FFMIA
requires agencies to have financial management systems that substantially comply with Federal
financial management systems requirements, applicable Federal accounting standards, and the
U.S. Standard General Ledger (USSGL) at the transaction level. Furthermore, the Act requires
independent auditors to report on agency compliance with the three requirements in the financial
statement audit report. The Federal Information Security Management Act (FISMA) states that
to be substantially compliant with FFMIA, there are to be no significant deficiencies in
information security policies, procedures, or practices.

FFMIA Compliance Determination

During FY 2010, the BOP assessed its financial management systems for compliance with
FFMIA and determined that they substantially comply with FFMIA. This determination is based
on the results of FISMA reviews and testing performed for OMB Circular A-123, Appendix A.
Consideration was also given to any issues identified during the BOP’s financial statement audit.


POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS

Crowding in Federal Prisons

Most of the challenges affecting the BOP today relate to growth of the Federal inmate
population. The BOP continues to rely on funding to build and acquire additional facilities to
help manage its growing inmate population and reduce the crowding rate. With increasing
Federal law enforcement efforts, the BOP is projecting population increases for the next several
years.




     U.S. Department of Justice
                                             -20-
LIMITATIONS OF THE FINANCIAL STATEMENTS

•   The principal financial statements have been prepared to report the financial position and
    results of operations of the BOP, pursuant to the requirements of 31 U.S.C. 3515(b).

•   While the statements have been prepared from the books and records of the BOP in
    accordance with U.S. generally accepted accounting principles for Federal entities and the
    formats prescribed by OMB, the statements are in addition to the financial reports used to
    monitor and control budgetary resources which are prepared from the same books and
    records.

•   The statements should be read with the realization that they are for a component of the U.S.
    Government, a sovereign entity.




     U.S. Department of Justice
                                             -21-
ATTACHMENT A




               -22-
U.S. DEPARTMENT OF JUSTICE

      BUREAU OF PRISONS

   REPORTS OF INDEPENDENT AUDITORS




                 -23-
This page intentionally left blank.




               -24-
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




                        Independent Auditors’ Report on Financial Statements


Inspector General
U.S. Department of Justice


Director
Federal Bureau of Prisons
U.S. Department of Justice


We have audited the accompanying consolidated balance sheets of the U.S. Department of Justice Federal
Bureau of Prisons (BOP) as of September 30, 2010 and 2009, and the related consolidated statements of net
cost and changes in net position, and the combined statements of budgetary resources (hereinafter referred
to as “consolidated financial statements”) for the years then ended. These consolidated financial statements
are the responsibility of the BOP’s management. Our responsibility is to express an opinion on these
consolidated financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
the BOP’s internal control over financial reporting. Accordingly, we express no such opinion. An audit
also includes examining, on a test basis, evidence supporting the amounts and disclosures in the
consolidated financial statements, assessing the accounting principles used and significant estimates made
by management, as well as evaluating the overall consolidated financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of Justice Federal Bureau of Prisons as of
September 30, 2010 and 2009, and its net costs, changes in net position, and budgetary resources for the
years then ended in conformity with U.S. generally accepted accounting principles.

The information in the Management’s Discussion and Analysis and Required Supplementary Information
sections is not a required part of the consolidated financial statements, but is supplementary information
required by U.S. generally accepted accounting principles. We have applied certain limited procedures,
which consisted principally of inquiries of management regarding the methods of measurement and
presentation of this information. However, we did not audit this information and, accordingly, we express
no opinion on it.

The information in the Other Accompanying Information section is presented for purposes of additional
analysis and is not required as part of the consolidated financial statements. This information has not been
subjected to auditing procedures and, accordingly, we express no opinion on it.



                                                            -25-
                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
Independent Auditors’ Report on Financial Statements
Page 2



In accordance with Government Auditing Standards, we have also issued our reports dated
November 4, 2010, on our consideration of the BOP’s internal control over financial reporting and our tests
of its compliance with certain provisions of laws, regulations, contracts, and other matters. The purpose of
those reports is to describe the scope of our testing of internal control over financial reporting and
compliance and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in
accordance with Government Auditing Standards and should be read in conjunction with this report in
assessing the results of our audits.




November 4, 2010




                                               -26-
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control over Financial Reporting


Inspector General
U.S. Department of Justice


Director
Federal Bureau of Prisons
U.S. Department of Justice


We have audited the consolidated balance sheets of the U.S. Department of Justice Federal Bureau of
Prisons (BOP) as of September 30, 2010 and 2009, and the related consolidated statements of net cost and
changes in net position, and the combined statements of budgetary resources (hereinafter referred to as
“consolidated financial statements”) for the years then ended, and have issued our report thereon dated
November 4, 2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and
OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement.

The management of the BOP is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2010 audit, we considered the BOP’s internal control over
financial reporting by obtaining an understanding of the BOP’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the consolidated
financial statements, but not for the purpose of expressing an opinion on the effectiveness of the BOP’s
internal control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
the BOP’s internal control over financial reporting. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2010 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.

                                                             -27-
                                  KPMG LLP is a Delaware limited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative
                                  (“KPMG International”), a Swiss entity.
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 2




The Exhibit presents the status of the prior year’s finding and recommendations.

This report is intended solely for the information and use of the BOP’s management, the U.S. Department
of Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 4, 2010




                                               -28-
                                                                                                       EXHIBIT

               STATUS OF PRIOR YEAR’S FINDING AND RECOMMENDATIONS

As required by Government Auditing Standards issued by the Comptroller General of the United States,
and by OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended, we
have reviewed the status of the prior year’s finding and recommendations. The following table provides
our assessment of the progress the BOP has made in correcting the previously identified significant
deficiency. We also provide the Office of the Inspector General report number where the deficiency was
reported, our recommendation for improvement, and the status of the recommendation as of the end of
fiscal year 2010.

                   Significant
  Report                                               Recommendation                               Status
                   Deficiency
 Annual        Weaknesses exist       Recommendation No. 1: Ensure that the
                                                                                                 Completed*
 Financial     in the                 Windows Desktops and Servers Central Office
 Statement     information            Points of Contact are reviewing the
 Fiscal        system controls        vulnerability scans and timely distributing the
 Year 2009                            patches via the Windows System Update Server
               environment.
 Report                               (WSUS).
 No. 10-18
                                      Recommendation No. 2: Execute procedures
                                                                                                 Completed*
                                      to frequently monitor the completion of the
                                      patch management deployment across the BOP
                                      enterprise.

                                      Recommendation No. 3: Provide a statement
                                                                                                 Completed*
                                      of risk acceptance signed by the BOP Chief
                                      Information Officer (CIO) for the known high-
                                      risk Novell vulnerabilities.

                                      Recommendation No. 4: Ensure that the                       Completed
                                      configuration settings are compared against a
                                      documented baseline prior to implementing new
                                      servers or making configuration changes.

                                      Recommendation No. 5: Trust Fund Branch                     Completed
                                      should perform a vulnerability scan immediately
                                      following the implementation of a new server to
                                      ensure that there are no security gaps after the
                                      implementation.


*Sufficient progress has been made in addressing this finding and the related recommendation such that the
remaining risk of misstatement no longer merits the attention by those charged with governance. Therefore, the
condition has been downgraded to a deficiency in internal control.




                                                      -29-
This page intentionally left blank.




               -30-
                              KPMG LLP
                              2001 M Street, NW
                              Washington, DC 20036-3389




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General
U.S. Department of Justice


Director
Federal Bureau of Prisons
U.S. Department of Justice


We have audited the consolidated balance sheets of the U.S. Department of Justice Federal Bureau of
Prisons (BOP) as of September 30, 2010 and 2009, and the related consolidated statements of net cost and
changes in net position, and the combined statements of budgetary resources (hereinafter referred to as
“consolidated financial statements”) for the years then ended, and have issued our report thereon dated
November 4, 2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and
OMB Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement.

The management of the BOP is responsible for complying with laws, regulations, and contracts applicable
to the BOP. As part of obtaining reasonable assurance about whether the BOP’s fiscal year 2010
consolidated financial statements are free of material misstatement, we performed tests of the BOP’s
compliance with certain provisions of laws, regulations, and contracts, noncompliance with which could
have a direct and material effect on the determination of the consolidated financial statement amounts, and
certain provisions of other laws and regulations specified in OMB Bulletin No. 07-04, including the
provisions referred to in Section 803(a) of the Federal Financial Management Improvement Act of 1996
(FFMIA). We limited our tests of compliance to the provisions described in the preceding sentence, and
we did not test compliance with all laws, regulations, and contracts applicable to the BOP. However,
providing an opinion on compliance with those provisions was not an objective of our audit, and
accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph, exclusive of those referred to
in FFMIA, disclosed no instances of noncompliance or other matters that are required to be reported herein
under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which the BOP’s financial management
systems did not substantially comply with the (1) Federal financial management system requirements,
(2) applicable Federal accounting standards, and (3) application of the United States Government Standard
General Ledger at the transaction level.




                                                           -31-
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Independent Auditors’ Report on Compliance and Other Matters
Page 2



This report is intended solely for the information and use of the BOP’s management, the U.S. Department
of Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 4, 2010




                                             -32-
U.S. DEPARTMENT OF JUSTICE

      BUREAU OF PRISONS
    PRINCIPAL FINANCIAL STATEMENTS
          AND RELATED NOTES




                 -33-
  Dollars in Thousands                                                             2010           2009

  ASSETS (Note 2)
     Intragovernmental
         Fund Balance with U.S. Treasury (Note 3)                             $   1,600,858   $   1,758,029
         Accounts Receivable, Net (Note 6)                                            6,235           3,765
         Other Assets (Note 9)                                                          407             347
     Total Intragovernmental                                                      1,607,500       1,762,141

     Cash and Monetary Assets (Note 4)                                                  774             738
     Accounts Receivable, Net (Note 6)                                               20,012          19,611
     Inventory and Related Property, Net (Note 7)                                    16,474          16,533
     General Property, Plant and Equipment, Net (Note 8)                          6,334,726       6,239,221
     Advances and Prepayments                                                         3,845           3,729
     Other Assets (Note 9)                                                            4,662           3,721
  Total Assets                                                                $   7,987,993   $   8,045,694

  LIABILITIES (Note 10)
     Intragovernmental
         Accounts Payable                                                     $      33,303   $     41,402
         Accrued Federal Employees' Compensation Act Liabilities                    139,222        132,154
         Other Liabilities (Note 13)                                                 73,926         62,659
     Total Intragovernmental                                                        246,451        236,215

     Accounts Payable                                                               389,178         343,619
     Actuarial Federal Employees' Compensation Act Liabilities                      735,856         669,020
     Accrued Payroll and Benefits                                                   140,727         125,510
     Accrued Annual and Compensatory Leave Liabilities                              168,853         162,056
     Environmental and Disposal Liabilities (Note 11)                                61,902          22,112
     Deferred Revenue                                                                 1,833           1,625
     Contingent Liabilities (Note 14)                                                 4,827           4,930
     Capital Lease Liabilities (Note 12)                                             30,703          36,956
     Other Liabilities (Note 13)                                                     96,138          65,880
  Total Liabilities                                                           $   1,876,468   $   1,667,923

  NET POSITION
     Unexpended Appropriations - All Other Funds                              $     894,623   $   1,106,922
     Cumulative Results of Operations - Earmarked Funds (Note 15)                    69,853          73,049
     Cumulative Results of Operations - All Other Funds                           5,147,049       5,197,800
  Total Net Position                                                          $   6,111,525   $   6,377,771

  Total Liabilities and Net Position                                          $   7,987,993   $   8,045,694




U.S. Department of Justice
               The accompanying notes are an integral part of these financial statements.

                                                      -34-
 Dollars in Thousands

                                        Gross Costs                                 Less: Earned Revenues                     Net Cost of
                     Intra-              With the                            Intra-        With the                           Operations
               FY governmental            Public             Total        governmental      Public                Total        (Note 16)

 Goal 2       2010      $           -   $      6,860    $      6,860        $         -     $          -     $            -   $      6,860
              2009      $           -   $      6,987    $      6,987        $         -     $          -     $            -   $      6,987

 Goal 3       2010          1,513,891       5,507,868       7,021,759           12,903          359,296           372,199         6,649,560
              2009          1,398,657       5,174,958       6,573,615           17,598          340,003           357,601         6,216,014

 Total        2010      $ 1,513,891     $ 5,514,728     $ 7,028,619         $   12,903      $   359,296      $    372,199     $ 6,656,420
              2009      $ 1,398,657     $ 5,181,945     $ 6,580,602         $   17,598      $   340,003      $    357,601     $ 6,223,001


 Goal 2      Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People
 Goal 3      Ensure the Fair and Efficient Administration of Justice




U.S. Department of Justice
                  The accompanying notes are an integral part of these financial statements.

                                                                     -35-
 Dollars in Thousands


                                                                                   2010
                                                          Earmarked              All Other
                                                            Funds                 Funds               Total
 Unexpended Appropriations
   Beginning Balances                                 $                -     $       1,106,922    $    1,106,922

    Budgetary Financing Sources
      Appropriations Received                                          -             6,205,386          6,205,386
      Appropriations Transferred-In/Out                                -                  (818)              (818)
      Appropriations Used                                              -            (6,416,867)        (6,416,867)
    Total Budgetary Financing Sources                                  -              (212,299)         (212,299)
    Unexpended Appropriations                         $                -     $         894,623    $      894,623

 Cumulative Results of Operations
   Beginning Balances                                 $           73,049     $       5,197,800    $    5,270,849
   Adjustments (Note 19)
      Changes in Accounting Principles                                 -               (36,833)          (36,833)
   Beginning Balances, As Adjusted                                73,049             5,160,967         5,234,016

    Budgetary Financing Sources
      Appropriations Used                                              -             6,416,867         6,416,867

    Other Financing Sources
       Donations and Forfeitures of Property                           -                   340                  340
       Transfers-In/Out Without Reimbursement                          -                 5,394                5,394
       Imputed Financing From Costs Absorbed
         by Others (Note 17)                                       3,891               212,814           216,705
    Total Financing Sources                                        3,891             6,635,415         6,639,306
    Net Cost of Operations                                        (7,087)           (6,649,333)        (6,656,420)
    Net Change                                                    (3,196)              (13,918)          (17,114)
    Cumulative Results of Operations                  $           69,853     $       5,147,049    $    5,216,902

 Net Position                                         $           69,853     $       6,041,672    $    6,111,525




U.S. Department of Justice
                 The accompanying notes are an integral part of these financial statements.

                                                          -36-
 Dollars in Thousands


                                                                                   2009
                                                          Earmarked              All Other
                                                            Funds                 Funds               Total
 Unexpended Appropriations
   Beginning Balances                                 $                -     $         899,745    $      899,745

    Budgetary Financing Sources
      Appropriations Received                                          -             6,176,599          6,176,599
      Appropriations Transferred-In/Out                                -                (8,035)            (8,035)
      Appropriations Used                                              -            (5,961,387)        (5,961,387)
    Total Budgetary Financing Sources                                  -               207,177           207,177
    Unexpended Appropriations                         $                -     $       1,106,922    $    1,106,922

 Cumulative Results of Operations
   Beginning Balances                                 $           78,480     $       5,249,477    $    5,327,957

    Budgetary Financing Sources
      Appropriations Used                                              -             5,961,387         5,961,387

    Other Financing Sources
       Donations and Forfeitures of Property                           -                    68                68
       Transfers-In/Out Without Reimbursement                          7                14,766            14,773
       Imputed Financing From Costs Absorbed
         by Others (Note 17)                                       3,376               186,289           189,665
    Total Financing Sources                                        3,383             6,162,510         6,165,893
    Net Cost of Operations                                        (8,814)           (6,214,187)        (6,223,001)
    Net Change                                                    (5,431)              (51,677)          (57,108)
    Cumulative Results of Operations                  $           73,049     $       5,197,800    $    5,270,849

 Net Position                                         $           73,049     $       6,304,722    $    6,377,771




U.S. Department of Justice
                 The accompanying notes are an integral part of these financial statements.

                                                          -37-
Dollars in Thousands                                                                 2010               2009

Budgetary Resources
    Unobligated Balance, Brought Forward, October 1                           $         372,051     $     360,659

    Recoveries of Prior Year Unpaid Obligations                                             6,845          18,899

    Budget Authority
      Appropriations Received                                                          6,205,386         6,176,599
      Spending Authority from Offsetting Collections
          Earned
              Collected                                                                 374,407           372,994
              Change in Receivables from Federal Sources                                 (2,005)           (4,015)
          Change in Unfilled Customer Orders
              Advance Received                                                              (203)              352
    Subtotal Budget Authority                                                          6,577,585         6,545,930

    Nonexpenditure Transfers, Net, Anticipated and Actual                                   (818)              (8,035)
Total Budgetary Resources (Note 18)                                           $        6,955,663    $    6,917,453

Status of Budgetary Resources

   Obligations Incurred
      Direct                                                                  $        6,536,140    $    6,496,740
      Reimbursable                                                                        41,617            48,662
          Total Obligations Incurred (Note 18)                                         6,577,757         6,545,402
   Unobligated Balance - Available
     Apportioned                                                                        300,013           284,574
     Exempt from Apportionment                                                           45,030            42,112
         Total Unobligated Balance - Available                                          345,043           326,686
   Unobligated Balance Not Available                                                     32,863            45,365
Total Status of Budgetary Resources                                           $        6,955,663    $    6,917,453

Change in Obligated Balance

   Obligated Balance, Net - Brought Forward, October 1
      Unpaid Obligations                                                   $           1,352,082    $    1,120,502
      Less: Uncollected Customer Payments from Federal Sources                             8,350            12,365
          Total Unpaid Obligated Balance, Net - Brought Forward, October 1             1,343,732         1,108,137
   Obligations Incurred, Net                                                           6,577,757         6,545,402
   Less: Gross Outlays                                                                 6,737,782         6,294,923
   Less: Recoveries of Prior Year Unpaid Obligations, Actual                               6,845            18,899
   Change in Uncollected Customer Payments from Federal Sources                            2,005             4,015

   Obligated Balance, Net - End of Period
      Unpaid Obligations                                                               1,185,212         1,352,082
      Less: Uncollected Customer Payments from Federal Sources                             6,345             8,350
          Total Unpaid Obligated Balance, Net - End of Period                 $        1,178,867    $    1,343,732

Net Outlays
   Gross Outlays                                                              $        6,737,782    $    6,294,923
   Less: Offsetting Collections                                                          374,204           373,346
   Less: Distributed Offsetting Receipts (Note 18)                                        12,666             2,813
Total Net Outlays (Note 18)                                                   $        6,350,912    $    5,918,764




     U.S. Department of Justice
                               These notes are an integral part of these financial statements.
                                                               -38-
                                   Bureau of Prisons
                      Notes to the Principal Financial Statements
                             (Dollars in Thousands, Except as Noted)

1.    Summary of Significant Accounting Policies

A.    Reporting Entity

The U.S. Federal Bureau of Prisons (BOP) is a reporting entity under the Department of Justice
(DOJ) and encompasses the appropriated activities of the BOP, as well as the activities of the
Trust Fund. It does not include the Federal Prison Industries, Inc. (FPI) (also called UNICOR),
which is a separate reporting component under the DOJ.

BOP
The BOP protects society by confining offenders in the controlled environments of prisons and
community-based facilities that are safe, humane, cost-efficient, and appropriately secure, and
that provide work and other self-improvement opportunities to assist offenders in becoming
law-abiding citizens.

Trust Fund
The Trust Fund was created by two DOJ Orders, No. 2126 on April 1, 1930, and No. 2244 on
January 1, 1932. The Trust Fund operates the Commissary to provide inmates with the
opportunity to procure merchandise and services not ordinarily provided by the BOP. The Trust
Fund is a self-sustaining trust revolving fund account that is funded through the sale of goods
and services to inmates.

B.    Basis of Presentation

These financial statements have been prepared to report the financial position and results of
operations of the BOP as required by the Government Management Reform Act of 1994, Public
Law 103-356, 108, Stat. 3515. These financial statements have been prepared from the books
and records of the BOP in accordance with United States generally accepted accounting
principles (GAAP) issued by the Federal Accounting Standards Advisory Board (FASAB) and
presentation guidelines in the Office of Management and Budget (OMB) Circular A-136,
“Financial Reporting Requirements.” These financial statements are different from the financial
reports prepared pursuant to OMB directives which are used to monitor and control the use of the
BOP budgetary resources. To ensure that the BOP financial statements are meaningful at the
entity level and to enhance reporting consistency within the Department, Other Assets and Other
Liabilities as defined by OMB Circular A-136 have been disaggregated on the balance sheet.
These include Advances and Prepayments, Accrued Federal Employees’ Compensation Act
(FECA) Liabilities, Accrued Payroll and Benefits, Accrued Annual and Compensatory Leave
Liabilities, Deferred Revenue, Contingent Liabilities and Capital Lease Liabilities.

     U.S. Department of Justice
                       These notes are an integral part of these financial statements.
                                                       -39-
1.    Summary of Significant Accounting Policies (continued)

C.    Basis of Consolidation

The consolidated/combined financial statements include the accounts of the BOP. All significant
proprietary intra-entity transactions and balances have been eliminated in consolidation. The
Statements of Budgetary Resources are combined statements for the fiscal years ended
September 30, 2010, and 2009 and as such, intra-entity transactions have not been eliminated.

D.    Basis of Accounting

The financial statements have been prepared and transactions have been recorded on an accrual
and budgetary bases of accounting. Under the accrual basis, revenues are recorded when earned
and expenses are recorded when incurred, regardless of when cash is exchanged. Under the
budgetary basis, however, funds availability is recorded based upon legal considerations and
constraints. As a result, certain line items on the proprietary financial statements may not equal
similar line items on the budgetary financial statements.

These statements were prepared in accordance with GAAP. GAAP for Federal entities are the
standards prescribed by the FASAB, which is designated as the official accounting standards-
setting body for the Federal Government by the American Institute of Certified Public
Accountants. The Statements of Federal Financial Accounting Standards (SFFAS) that were in
effect as of September 30, 2010, were followed in the preparation of these financial statements.

E.    Non-Entity Assets

A portion of the BOP’s Fund Balance with the U.S. Treasury (Treasury) and Accounts
Receivable is accounted for as a Non-Entity Asset and disclosed in Note 2. Non-Entity assets
are assets held by the BOP but are not available for use by the BOP. The majority of non-entity
assets are comprised of prisoner monies held in trust by the Treasury. This amount also includes
certain receivables and receipts of cash that are in suspense, clearing, deposit, or general fund
accounts. These transactions were processed by commercial banks for deposit to fund accounts
maintained at the Treasury.

F.    Fund Balance with U.S. Treasury and Cash

Funds with the Treasury represent appropriated and trust funds available to pay current liabilities
and finance future authorized purchases. Certain receipts are processed by commercial banks for
deposit to the BOP appropriation or fund accounts. In addition, the BOP has been granted and
maintains imprest funds at many locations that are also included in the BOP’s cash balance.




     U.S. Department of Justice
                       These notes are an integral part of these financial statements.
                                                       -40-
1.    Summary of Significant Accounting Policies (continued)

G.    Investments

The Federal Government does not set aside assets to pay future benefits or other expenditures
associated with the Trust Fund. The cash receipts collected from the public for an earmarked
fund are deposited in the Treasury, which uses the cash for general Government purposes.
Treasury securities are an asset to the BOP and a liability to the Treasury. Because the BOP and
the Treasury are both parts of the Government, these assets and liabilities offset each other from
the standpoint of the Government as a whole. For this reason, they do not represent an asset or a
liability in the U.S. Government-wide financial statements.

Treasury securities provide the BOP with authority to draw upon the Treasury to make future
benefit payments or other expenditures. When the BOP requires redemption of these securities
to make expenditures, the Government finances those expenditures out of accumulated cash
balances, by raising taxes or other receipts, by borrowing from the public or repaying less debt,
or by curtailing other expenditures. This is the same way that the Government finances all other
expenditures.

Beginning in fiscal year 1995, the Trust Fund was granted authority (Public Law 103-317,
Section 107) to invest funds in excess of operating needs in securities guaranteed by the
Treasury. In November 1994, the Trust Fund began participating in the Federal Investment
Counseling Program through the Treasury. The Treasury charges no commissions or transaction
fees for participating in the program. Investments are made in any Federal Treasury security
available to the public. The amount and length of investments are determined after careful
review of cash balances available to defray outstanding payables and other liabilities.

Investments in U.S. Government securities are reported at cost net of amortized discounts.
Discounts are amortized into interest income over the term of the investment. The Trust Fund’s
intent is to hold investments to maturity, unless they are needed to sustain the operations of the
Trust Fund. No provision is made for unrealized gains or losses on these securities because, in
the majority of cases, they are held to maturity. The interest received on these securities is
captured in the Trust Fund and is used to defray its general operating expenses.




     U.S. Department of Justice
                       These notes are an integral part of these financial statements.
                                                       -41-
1.    Summary of Significant Accounting Policies (continued)

H.    Accounts Receivable

Accounts receivable are largely comprised of receivables with the Public. Net accounts
receivable includes reimbursement and refund receivables due from Federal agencies and others,
less the allowance for uncollectible accounts. The BOP establishes an allowance for
uncollectible accounts when it is more likely than not that the accounts receivable will not be
collected.

The allowance for uncollectible amounts is estimated by analyzing all individual accounts
receivables. Loss estimation is based on the debtor’s ability to pay, payment record, willingness
to pay, and the probable recovery of amounts from secondary sources.

I.    Inventory and Related Property

The Trust Fund Commissary inventories are comprised of merchandise on hand at 93 reporting
sites located in the United States and Puerto Rico. Inventories consist of merchandise that is
either not normally provided by the BOP or are of a different quality than is regularly issued.
Inventory sales are restricted to inmates and consist primarily of foods and beverages, hobby
craft items, stamps, clothing, health and hygiene commodities, and other sundry items.

The Trust Fund Commissary inventories are stated at latest acquisition cost, which is adjusted
using the Consumer Price Index (CPI) for the year to approximate the value of the inventory
under the First-In-First-Out (FIFO) accounting methodology.

J.    General Property, Plant and Equipment

The BOP owns the majority of land and buildings in which it operates and capitalizes them on its
records. Real property is capitalized based upon the total acquisition cost. Depreciation is
applied to program areas based upon the percentage of space occupied. Real property
acquisitions equal to or greater than $100 thousand are capitalized. Real property acquisitions
are capitalized and depreciated by the automated SENTRY Real Property Management System
(SRPMS).

Personal property acquisitions are capitalized and depreciated by the automated SENTRY
Property Management System (SPMS). Physical inventories are conducted annually and
adjustments are made as necessary. Any equipment with an acquisition cost of less than $5
thousand is expensed when purchased. Assets are depreciated using the straight-line method
over the estimated useful lives of the assets.




     U.S. Department of Justice
                       These notes are an integral part of these financial statements.
                                                       -42-
1.    Summary of Significant Accounting Policies (continued)

J.    General Property, Plant and Equipment (continued)

The following chart represents the maximum depreciation years for BOP’s property:

BOP Depreciation Schedule
Buildings                                              30
Equipment                                              10
Leasehold Improvements                                  *
Other Structures & Facilities                          20
Internal Use Software                                   7
Vehicles                                               10
Assets Under Capital Lease                              *
* Depreciation based on the lesser of the lease term or useful life of the asset.


K.    Advances and Prepayments

Advances and prepayments classified as assets of the BOP on the Balance Sheet represent funds
disbursed to individuals and other organizations for which goods or services have not yet been
provided.

This amount also includes the current balance of travel advances, issued to Federal employees in
advance of official travel. Amounts issued are limited to per diem expenses expected to be
incurred by the employees during official travel. For Federal employees who anticipate and plan
for travel, advances are permitted up to 80 percent of per diem. Actual reimbursements are made
at 100 percent of per diem.

The BOP’s amount also includes advances that arise whenever the BOP provides money to state
and local governmental agencies to fund correctional study programs. Advances and
prepayments involving other Federal agencies are classified as other assets on the balance sheet.

L.    Liabilities

Liabilities represent the monies or other resources that are likely to be paid by the BOP as the
result of a transaction or event that has already occurred. However, no liability can be paid by
the BOP absent proper budget authority. Liabilities that are not funded by the current year
appropriation are classified as liabilities not covered by budgetary resources in Note 10.




     U.S. Department of Justice
                       These notes are an integral part of these financial statements.
                                                       -43-
1.    Summary of Significant Accounting Policies (continued)

M.    Contingencies and Commitments

Contingencies
The BOP is party to various administrative proceedings, legal actions, and claims related to
contract disputes, employee claims under the Fair Labor Standards Act, and inmate claims under
the Federal Tort Claim Act and other legal matters. These claims are of a nature considered
normal for a government law enforcement agency. In accordance with SFFAS No. 5,
“Accounting for Liabilities of the Federal Government” and SFFAS No. 12, “Recognition of
Contingent liabilities from Litigation,” the BOP has probable and reasonably possible losses
arising from litigation. The balance sheet includes an estimated liability for those legal actions
where management and the Chief Counsel consider adverse decisions “probable” and amounts
are reasonably estimable. Legal actions where management and the Chief Counsel consider
adverse decisions “probable” or “reasonably possible” and the amounts are reasonably estimable
are disclosed in Note 14, Contingencies and Commitments. However, there are cases where
amounts have not been accrued or disclosed because the amounts of the potential loss cannot be
estimated or the likelihood of an unfavorable outcome is “remote.”

N.    Annual, Sick, and Other Leave

Annual and compensatory leave is expensed with an offsetting liability as it is earned and the
corresponding liability is reduced as leave is taken. Each year, the balance in the accrued annual
leave liability account is adjusted to reflect current pay rates. To the extent current or prior year
appropriations are not available to fund annual and compensatory leave earned but not taken,
funding will be obtained from future financing sources.

Sick leave and other types of non-vested leave are expensed as taken.

O.    Interest on Late Payments

Pursuant to the Prompt Payment Act, 31 U.S.C. 3901-3907, Federal agencies must pay interest
on payments for goods or services made to business concerns after the due date. The due date is
generally 30 days after receipt of a proper invoice or acceptance of the goods or services.




     U.S. Department of Justice
                       These notes are an integral part of these financial statements.
                                                       -44-
1.    Summary of Significant Accounting Policies (continued)

P.    Retirement Plans

With few exceptions, employees hired before January 1, 1984, are covered by the Civil Service
Retirement System (CSRS) and employees hired after December 31, 1983, are covered by the
Federal Employees Retirement System (FERS).

For employees covered by the CSRS, the BOP contributes 7 percent of the employee’s gross pay
for normal retirement or 7.5 percent for hazardous duty retirement. For employees covered by
the FERS, the BOP contributes 11.2 percent of the employee’s gross pay for normal retirement
or 24.9 percent for hazardous duty retirement. All employees are eligible to contribute to the
Federal Thrift Savings Plan (TSP). For those employees covered by the FERS, a TSP is
automatically established, and the BOP is required to contribute an additional 1 percent of gross
pay to this plan and match employee contributions up to 4 percent. No matching contributions
are made to the TSPs established by the CSRS employees. The BOP does not report CSRS or
FERS assets, accumulated plan benefits, or unfunded liabilities, if any, which may be applicable
to its employees. Such reporting is the responsibility of the Office of Personnel Management
(OPM).

SFFAS No. 5 requires employing agencies to recognize the cost of pensions and other retirement
benefits during their employees’ active years of service. Refer to Note 17, Imputed Financing
from Costs Absorbed by Others.

Q.    Federal Employee Compensation Benefits

The FECA provides income and medical cost protection to covered Federal civilian employees
injured on the job, employees who have contracted a work-related occupational disease, and
beneficiaries of employees whose death is attributable to a job-related injury or occupational
disease. Claims incurred for benefits for BOP employees under FECA are administered by the
Department of Labor (DOL) and are ultimately paid by the BOP. The total FECA liability
consists of an actuarial and an accrued portion as discussed below.

Actuarial Liability: The DOL calculates the liability of the Federal Government for future
compensation benefits, which includes the expected liability for death, disability, medical, and
other approved costs. This method utilizes historical benefit payment patterns related to a
specified incurred period to predict the ultimate payments related to that period. The projected
annual benefit payments were discounted to present value. The resulting Federal Government
liability was then distributed by the agency. The DOJ portion of this liability includes the
estimated future cost of death benefits, workers’ compensation, medical, and miscellaneous cost
for approved compensation cases for the DOJ employees. The DOJ allocates the liability to the
BOP on the basis of actual payments made to the FECA Special Benefits Fund (SBF) for the
three prior years as compared to the total DOJ payments made over the same period.

     U.S. Department of Justice
                       These notes are an integral part of these financial statements.
                                                       -45-
1.    Summary of Significant Accounting Policies (continued)

Q.    Federal Employee Compensation Benefits (continued)

The FECA actuarial liability is recorded for reporting purposes only. This liability constitutes an
extended future estimate of cost, which will not be obligated against budgetary resources until
the fiscal year in which the cost is actually billed to the DOJ.

Accrued Liability: The accrued FECA liability is the difference between the FECA benefits paid
by the FECA SBF and the agency’s actual cash payments to the FECA SBF. For example, the
FECA SBF will pay benefits on behalf of an agency through the current year. However, most
agencies’ actual cash payments during the current year to the FECA SBF will reimburse the
FECA SBF for benefits paid through a prior fiscal year. The difference between these two
amounts is the accrued FECA liability.

R.    Intragovernmental Activity

Intragovernmental costs and exchange revenue represent transactions made between two
reporting entities within the Federal Government. Costs and earned revenues with the public
represent exchange transactions made between the reporting entity and a non-Federal entity. The
classification of revenue or cost as “intragovernmental” or “with the public” is defined on a
transaction-by-transaction basis. The purpose of this classification is to enable the Federal
Government to prepare consolidated financial statements, not to match public and
intragovernmental revenue with the costs incurred to produce public and intragovernmental
revenue.

S.    Revenues and Other Financing Sources

The BOP receives annual, multi-year, and no-year appropriations that may be used, within
statutory limits, for operating and capital expenditures to support its programs. Appropriations
are recognized as budgetary financing sources at the time the related program or administrative
expenses are accrued. Additional amounts are obtained through reimbursements for services and
donated property.

The BOP receives exchange revenues for daily care, maintenance, and housing of State and
Local offenders; for medical services outside of BOP provided to United States Marshals Service
prisoners; for meals provided to the BOP staff; for rental of staff housing on institution premises;
and for utilities used by the FPI.




     U.S. Department of Justice
                       These notes are an integral part of these financial statements.
                                                       -46-
1.    Summary of Significant Accounting Policies (continued)

S.    Revenues and Other Financing Sources (continued)

The amount billed to house state prisoners is based on the average inmate per capita rate for the
security level of the institution where the prisoner is housed. The price of meal tickets for
institution employees is calculated using the annual per capita cost for providing meals to
inmates. Rental rates for employee housing on institution premises are calculated using the
Regional Survey Method: base rental rates are established by means of a series of economic
models that utilize typical rates for comparable private rental housing in the established
communities nearest to the sites in which the quarters are located. The amount charged for
steam purchased by the FPI is the actual cost incurred by the BOP during the production of the
utility provided.

Trust Fund profits are utilized for continued operations and for programs that benefit the inmate
population. The Trust Fund receives no appropriated funds. The Trust Fund receives the
majority of its funding through revenues generated by the sale of merchandise and telephone
services to inmates. Regular items sold through institution commissaries are marked-up 30
percent from their per unit cost. They are then rounded to the nearest nickel to determine selling
price. In rare instances when taxes (whether State, Local, or Federal) are included, the per unit
tax amount is added to the marked-up price before rounding. Should the selling price ever
exceed the manufacturer’s printed price, the printed price shall be set even if it is in odd cents.
The collection of commissions received from products sold through vending machines, based on
the volume of products sold, also contributes to net profit.

The majority of these transactions were done through the use of the debit card program. The
debit card program was approved for BOP-wide implementation in fiscal year 1991 by the BOP
Executive Staff and is a coin-free means of using vending machines. Since September 30, 2000,
all institutions have had debit card capacity. Inmates purchase “debits” from the Trust Fund and
these debits are then recorded on a card with an electronic magnetic strip. The number of debits
is automatically reduced with each purchase. In addition, the Trust Fund has deferred revenue
for the Inmate Telephone System, Trust Fund Limited Inmate Communication System
(TRULINCS), and the Debit Card program, which include the amount of phone credits, TRU-
units, and vending credits purchased by inmates that have not been used as of September 30,
2010.




     U.S. Department of Justice
                       These notes are an integral part of these financial statements.
                                                       -47-
1.    Summary of Significant Accounting Policies (continued)

S.    Revenues and Other Financing Sources (continued)

The Trust Fund also earned other revenue from medical co-payments, vendor commissions,
email, recycling income and employees’ club commissions. As of March 2004, friends and
family members are able to send money to inmates electronically. Funds are deposited directly
to an inmate’s account within a few hours. A commission based on transaction volume is
received from the vendor. TRULINCS provides inmates with some limited computer access to
include the capability to send and receive electronic messages without having access to the
internet. The TRULINCS pilot was successful and the program was approved by the Executive
Staff for Bureau-wide implementation. The Bureau anticipates full implementation by the fourth
quarter 2011. TRULINCS will function as part of TRUFACS and be funded completely by the
Trust Fund Appropriation. As of October 2005, inmates pay a $2 per visit co-pay for in-house
hospital appointments. Twenty-five percent of the co-pay is retained by the Trust Fund and the
other 75 percent is paid to the Office of Justice Programs Crime Victims Fund. Trust Fund
revenue also includes investment income.

T.    Earmarked Funds

SFFAS No. 27, “Identifying and Reporting Earmarked Funds,” defines ‘earmarked funds’ as
being financed by specifically identified revenues, often supplemented by other financing
sources, which remain available over time. These specifically identified revenues and other
financing sources are required by statute to be used for designated activities, benefits, or
purposes, and must be accounted for separately from the Government’s general revenues. The
three required criteria for an earmarked fund are:
     1. A statute committing the Federal Government to use specifically identified revenues and
        other financing sources only for designated activities, benefits, or purposes;
     2. Explicit authority for the earmarked fund to retain revenues and other financing sources
        not used in the current period for future use to finance the designated activities, benefits,
        or purposes; and
     3. A requirement to account for and report on the receipt, use, and retention of the revenues
        and other financing sources that distinguishes the earmarked fund from the Government’s
        general revenues.
     The following fund meets the definition of an Earmarked Fund: Trust Fund – 15X8408.




     U.S. Department of Justice
                        These notes are an integral part of these financial statements.
                                                        -48-
1.    Summary of Significant Accounting Policies (continued)

U.    Allocation Transfer of Appropriations

The BOP is a party to allocation transfers with another Federal agency as a transferring (parent)
entity and/or a receiving (child) entity. Allocation transfers are legal delegations by one
department of its authority to obligate budget authority and outlay funds to another department.
Generally, all financial activity related to these allocation transfers (e.g., budget authority,
obligations, outlays) is reported in the financial statements of the parent entity, from which the
underlying legislative authority, appropriations, and budget apportionments are derived.

The BOP allocates funds to the Public Health Service (PHS). The PHS provides a portion of the
medical treatment for Federal inmates. Money is transferred from the BOP to PHS, and is
designated and expended for current year obligations of PHS staff salaries, benefits, and
applicable relocation expenses. The amounts transferred to PHS from the BOP totaled $90
million and $82 million for the fiscal years ended September 30, 2010 and 2009, respectively,
and are not material to PHS, therefore they are included as part of these financial statements.

V.    Tax Exempt Status

As an agency of the Federal Government, the BOP is exempt from all income taxes imposed by
any governing body whether it is a Federal, state, commonwealth, local, or foreign government.

W.    Use of Estimates

The preparation of financial statements requires management to make certain estimates and
assumptions that affect the reported amounts of assets and liabilities and the reported amounts of
revenue and expenses during the reporting period. Actual results could differ from those
estimates.

X.    Reclassifications

The FY 2009 financial statements were reclassified to conform to the FY 2010 Departmental
financial statement presentation requirements. The reclassifications had no material effect on
total assets, liabilities, net position, change in net position or budgetary resources as previously
reported.

Y.    Subsequent Events

Subsequent events and transactions occurring after September 30, 2010 through the date of the
auditors’ opinion have been evaluated for potential recognition or disclosure in the financial
statements. The date of the auditors’ opinion also represents the date that the financial statements
were available to be issued.

     U.S. Department of Justice
                       These notes are an integral part of these financial statements.
                                                       -49-
2.    Non-Entity Assets

Non-entity assets are assets that are held by an entity but are not available for use by the entity.
Non-entity assets as of September 30, 2010 and 2009 are presented in the following table.


              As of September 30, 2010 and 2009
                                                                            2010               2009
              Intragovernmental
                 Fund Balance With U.S. Treasury                       $       44,854      $    42,981

              With the Public
                 Accounts Receivable, Net                                      13,729           13,512
                   Total With the Public                                       13,729           13,512
                   Total Non-Entity Assets                                     58,583           56,493
                   Total Entity Assets                                   7,929,410           7,989,201
                   Total Assets                                        $ 7,987,993         $ 8,045,694




3.    Fund Balance with U.S. Treasury

The Fund Balance with the Treasury as reported in the financial statements represents the
unexpended cash balances in the BOP’s accounting records for all the BOP Treasury Symbols at
September 30, 2010 and 2009. The fund balances with the Treasury are presented in the
following table.


       As of September 30, 2010 and 2009
                                                                                 2010                 2009
       Fund Balances
          Trust Fund                                                       $         67,328     $        76,756
          General Funds                                                           1,488,676           1,638,292
          Other Fund Types                                                           44,854              42,981
            Total Fund Balances with U.S. Treasury                         $      1,600,858     $     1,758,029

       Status of Fund Balances
           Unobligated Balance - Available                                 $        345,043     $       326,686
           Unobligated Balance - Unavailable                                         32,863              45,365
           Obligated Balance not yet Disbursed                                    1,178,867           1,343,732
           Other Funds (With)/Without Budgetary Resources                            44,085              42,246
             Total Status of Fund Balances                                 $      1,600,858     $     1,758,029




     U.S. Department of Justice
                         These notes are an integral part of these financial statements.
                                                         -50-
3.    Fund Balance with U.S. Treasury (continued)

The fund balance with the Treasury as reported in these financial statements and notes have been
adjusted to account for the difference from that reported by the Treasury. The reported balance
in the BOP’s general ledger account, Fund Balance with the Treasury, before any adjustments,
was $821 and $11,974 thousand greater than the actual fund balance reported by the Treasury as
of September 30, 2010 and 2009, respectively. Routinely, two types of differences arise. First,
differences are created between the accounting records of the BOP and the Treasury because of
the timing of transaction inputs corresponding with cash receipts and disbursements. Second,
differences are created by data input errors and remain until the necessary correcting entries are
processed by the BOP’s or the Treasury’s accounting systems. The BOP operates a
decentralized accounting system with 112 agency location codes. Any cause for reconciliation
must be done individually by location.

For the Trust Fund, this amount represents the aggregate balance of the Trust Fund’s cash
accounts with the Treasury under the account symbol 15X8408. This item also represents the
total amount of all obligated and unobligated undisbursed account balances with the Treasury as
reflected in the Trust Fund’s records. The Trust Fund’s general ledger balance for Fund Balance
with the Treasury, before any adjustments, was $253 and $810 thousand greater than the actual
amount reported by each of the BOP’s accounting stations to the Treasury as of September 30,
2010 and 2009, respectively.

The unobligated balance for annual and multi-year budget authority may be used to incur new
obligations for the purpose specified by the appropriation act. Annual and multi-year budget
authority expires at the end of its period of availability. During the first through the fifth expired
years, the unobligated balance becomes unavailable and may be used to adjust obligations and
disbursements that were recorded before the budgetary authority expired or to meet a legitimate
or bona fide need arising in the fiscal year for which the appropriation was made. The
unobligated balance for no-year budget authority may be used to incur obligations indefinitely
for the purpose specified by the appropriation act. No-year budget authority unobligated
balances are still subject to the annual apportionment and allotment process.

The total status of fund balances includes funds without budgetary resources. Other funds
without budgetary resources are composed of prisoner monies held in trust by the Treasury and
certain receivables and receipts of cash that are in suspense, clearing, deposit, or general fund
accounts.




     U.S. Department of Justice
                       These notes are an integral part of these financial statements.
                                                       -51-
4.    Cash and Monetary Assets

Cash and Monetary Assets, as reported in the financial statements, represent the total cash and
cash equivalents under the control of the BOP as of September 30, 2010 and 2009, respectively.


           As of September 30, 2010 and 2009
                                                                      2010                   2009
           Cash
              Imprest Funds                                    $              774        $          738



The BOP’s cash account is minimal given that the BOP does not, for the most part, maintain
cash in commercial bank accounts. The BOP’s cash account consists of imprest funds totaling
$774 and $738 thousand as of September 30, 2010 and 2009, respectively. All of the listed
amounts are available to pay current liabilities and finance future authorized purchases.


5.    Investments, Net

The Trust Fund invests in non-marketable market-based Treasury securities issued by the Bureau
of the Public Debt. These securities are available to the public but cannot be resold. These
securities are purchased and redeemed at par value (the value at maturity) exclusively through
the Treasury’s Finance and Funding Branch, see Note 1.G. When securities are purchased, the
investment is recorded at par value. Premiums and/or discounts are amortized through the end of
the reporting period. As of September 30, 2010 and 2009, all Trust Fund security investments
have matured. Therefore, the respective investment balances are zero.




     U.S. Department of Justice
                       These notes are an integral part of these financial statements.
                                                       -52-
6.    Accounts Receivable, Net

Accounts Receivable represents the net amounts due to BOP as of September 30, 2010 and 2009,
respectively, as shown in the following table. The Intragovernmental Allowance for
Uncollectible Accounts represents accounts receivables from the Department of Homeland
Security that are deemed uncollectible.


               As of September 30, 2010 and 2009
                                                                          2010                2009
               Intragovernmental
                   Accounts Receivable                               $        7,701       $      9,286
                   Allowance for Uncollectible Accounts                      (1,466)            (5,521)
                      Total Intragovernmental                                 6,235              3,765


               With the Public
                  Accounts Receivable                                       20,732             22,734
                  Allowance for Uncollectible Accounts                        (720)            (3,123)
                     Total With the Public                                  20,012             19,611
                     Total Accounts Receivable, Net                  $      26,247        $    23,376




7.    Inventory and Related Property, Net

The Trust Fund Commissary inventory purchased for resale sale as of September 30, 2010 and
2009 is presented in the following table.


              As of September 30, 2010 and 2009
                                                                          2010                2009
              Inventory
                Inventory Purchased for Resale                       $      16,474        $    16,533




     U.S. Department of Justice
                        These notes are an integral part of these financial statements.
                                                        -53-
8.    General Property, Plant and Equipment, Net

Property, Plant and Equipment (PP&E), as reported in the financial statements, are recorded at
the acquisition cost net of accumulated depreciation at September 30, 2010 and 2009,
respectively. See Note 1.J for method of depreciation, capitalization thresholds, and useful lives.


       As of September 30, 2010                   Acquisition         Accumulated             Net Book      Useful
                                                     Cost             Depreciation             Value         Life
       Land and Land Rights                     $     174,606        $             -        $     174,606    N/A
       Construction in Progress                       373,126                      -              373,126    N/A
       Buildings, Improvements, and
           Renovations                             8,433,772             (3,296,240)            5,137,532   2-30 yrs
       Other Structures & Facilities                 773,876               (387,538)              386,338    20 yrs
       Vehicles                                      138,637                (94,752)               43,885   6-10 yrs
       Equipment                                     269,725               (154,802)              114,923    10 yrs
       Assets Under Capital Lease                     89,625                (44,813)               44,812   5-30 yrs
       Leasehold Improvements                         60,261                (29,131)               31,130   2-20 yrs
       Internal Use Software                          26,582                (16,221)               10,361    5-7 yrs
       Internal Use Software in Development           18,013                      -                18,013     N/A
       Total                                    $ 10,358,223         $   (4,023,497)        $   6,334,726




       As of September 30, 2009                   Acquisition         Accumulated             Net Book      Useful
                                                     Cost             Depreciation             Value         Life
       Land and Land Rights                     $     174,779        $             -        $     174,779    N/A
       Construction in Progress                       584,638                      -              584,638    N/A
       Buildings, Improvements, and
           Renovations                               7,872,483           (3,022,720)            4,849,763   2-30 yrs
       Other Structures & Facilities                   742,445             (351,376)              391,069    20 yrs
       Vehicles                                        134,123              (90,591)               43,532   6-10 yrs
       Equipment                                       249,661             (144,085)              105,576    10 yrs
       Assets Under Capital Lease                       89,625              (41,825)               47,800   5-30 yrs
       Leasehold Improvements                           50,740              (24,593)               26,147   2-20 yrs
       Internal Use Software                            19,813              (12,763)                7,050    5-7 yrs
       Internal Use Software in Development              8,867                    -                 8,867     N/A
       Total                                    $    9,927,174       $   (3,687,953)        $   6,239,221



Leasehold improvements reflect capital improvements made to facilities occupied but not owned
by the BOP. Capital improvements made to buildings and other structures owned by the BOP
are reflected as buildings and other structures and facilities. The BOP had capitalized property
purchases from Federal Sources and from the Public. These purchases totaled $9,674 and $5,233
thousand from Federal Sources, and $443,927 and $374,190 thousand from the Public, for the
fiscal years ended September 30, 2010 and 2009, respectively.




     U.S. Department of Justice
                          These notes are an integral part of these financial statements.
                                                          -54-
9.     Other Assets

Other assets include advances to others and farm livestock. The amounts as of September 30,
2010 and 2009 are presented in the following table.


                    As of September 30, 2010 and 2009
                                                                    2010                     2009
                    Intragovernmental
                        Advances and Prepayments              $            407       $              347

                    Other Assets With the Public
                       Farm Livestock                         $          4,662       $          3,721




10.    Liabilities Not Covered by Budgetary Resources

Liabilities not covered by budgetary resources are liabilities for which Congressional action is
needed before budgetary resources can be provided. These liabilities as of September 30, 2010
and 2009, respectively, are presented in the following table.


         As of September 30, 2010 and 2009
                                                                                     2010                 2009
         Intragovernmental
             Accrued FECA Liabilities                                            $    138,556        $     131,712
             Other Unfunded Employment Related Liabilities                                923                  977
                Total Intragovernmental                                               139,479              132,689

         With the Public
            Actuarial FECA Liabilities                                               735,856                669,020
            Accrued Annual and Compensatory Leave Liabilities                        168,853                162,056
            Environmental and Disposal Liabilities (Note 11)                          61,902                 22,112
            Contingent Liabilities (Note 14)                                           4,827                  4,930
            Capital Lease Liabilties (Note 12)                                        30,703                 36,956
            Other                                                                     47,300                 14,282
                Total With the Public                                              1,049,441                909,356
                Total Liabilities not Covered by Budgetary Resources               1,188,920              1,042,045
                Total Liabilities Covered by Budgetary Resources                     687,548                625,878
                Total Liabilities                                                $ 1,876,468         $    1,667,923




      U.S. Department of Justice
                           These notes are an integral part of these financial statements.
                                                           -55-
11.    Environmental and Disposal Liabilities

The BOP operates 116 facilities in over 30 States and Territories and is subject to rigorous
Federal, State, and Local environmental regulations applicable to the facility locations. Per
SFFAS No. 5, SFFAS No. 6, “Accounting for Property, Plant, and Equipment”, and Technical
Release No. 2, “Determining Probable and Reasonably Estimable for Environmental Liabilities
in the Federal Government”, Federal agencies are required to recognize liabilities for
environmental clean-up costs when the future outflow or sacrifice of resources is probable and
reasonably estimable. The BOP exercises due care in determining the presence of contamination
through regularly scheduled testing required by Facilities Management Policy. If, as a result of
the testing, environmental contamination is detected on BOP owned property or on non-BOP
property but BOP is determined to be the agent of the contamination, the BOP will clean up the
contamination as soon as possible. The liability is recognized immediately.

As environmental-related clean-up costs are accomplished, the prior established liability will be
reduced. Additionally, estimates will be revised periodically to account for material changes due
to inflation, deflation, technology, or applicable laws and regulations. Any material changes in
the estimated total clean-up costs will be expensed when re-estimates occur and the liability
balance adjusted.

Firing Ranges
The BOP operates firing ranges on 65 of the sites where its institutions are located. Use of these
firing ranges generates waste consisting primarily of lead shot and spent rounds from rifles,
shotguns, pistols, and automatic weapons. At operational firing ranges, lead-containing bullets
are fired and eventually fall to the ground at or near the range. As of September 30, 2009, BOP
management determined their estimated clean-up liability to be $22,112 thousand. In FY 2010,
BOP management adjusted the estimated clean-up liability by the current U.S. inflation rate as
determined by the U.S. Treasury and as such determined that an estimated firing range clean-up
liability of $25,069 thousand, based on an inflation rate of 11.6 percent, should be recorded.

Asbestos
Section 112 of the Clean Air Act requires the U.S. Environmental Protection Agency (EPA) to
develop and enforce regulations to protect the general public from exposure to airborne
contaminants that are known to be hazardous to human health. On March 31, 1971, the EPA
identified asbestos as a hazardous pollutant, and on April 6, 1973, EPA first promulgated the
Asbestos National Emissions Standards for Hazardous Air Pollutants (NESHAP).




      U.S. Department of Justice
                        These notes are an integral part of these financial statements.
                                                        -56-
11.    Environmental and Disposal Liabilities (continued)

Asbestos (continued)
The BOP conducted a review of 46 institutions that were in service prior to April 6, 1973; the
review provided an estimate of the extent of friable and non-friable Asbestos Containing
Materials (ACM) remaining in each of the institutions as of October 30, 2009. The BOP
recognized the estimated total clean-up cost for friable and non-friable asbestos for those
facilities as a liability and reported the offsetting charge as a “Change in Accounting Principles”
in the Statement of Changes in Net Position (SCNP). As of October 1, 2009, the BOP
management implemented FASAB Technical Bulletin 2006-1 and determined their estimated
asbestos clean-up liability is $36,833 thousand. The BOP has chosen to adopt this requirement
early.


12.    Leases

Capital Leases

The tables that follow represent a 25-year capital lease for a Federal Transfer Center in
Oklahoma City. The lease agreement, which will expire in fiscal year 2019, calls for semi-
annual payments of $4.5 million for 20 years; the remaining five years (lease years 21 through
25) will be land rental payments only. The BOP paid a total of $9.1 million in payments during
the fiscal year ended September 30, 2010.


           As of September 30, 2010 and 2009

           Capital Leases                                                      2010               2009

           Summary of Assets Under Capital Lease
              Land and Buildings                                          $       89,625      $     89,625
              Accumulated Amortization                                           (44,813)          (41,825)
                 Total Assets Under Capital Lease (Note 8)                $       44,812      $     47,800




      U.S. Department of Justice
                            These notes are an integral part of these financial statements.
                                                            -57-
12.    Leases (continued)

Future Capital Lease Payments


          Future Capital Lease Payments Due
                                                                                                      Land and
             Fiscal Year                                                                              Buildings
                 2011                                                                             $         9,073
                 2012                                                                                       9,073
                 2013                                                                                       9,073
                 2014                                                                                       9,073
                 2015                                                                                           32
                 After 2015                                                                                   128
                  Total Future Capital Lease Payments                                             $        36,452
             Less: Imputed Interest                                                                        (5,749)
                 FY 2010 Net Capital Lease Liabilities                                            $        30,703
                 FY 2009 Net Capital Lease Liabilities                                            $        36,956

                                                                                  2010                  2009
          Net Capital Lease Liabilities Not Covered by
             Budgetary Resources                                            $        30,703       $       36,956



The table that follows represents the amounts that the BOP paid for operating leases during the
fiscal years ended September 30, 2010 and 2009. The BOP did not have any noncancelable lease
expenses for the fiscal years ended September 30, 2010 and 2009.


            Operating Lease Expenses

            Lease Type                                                           2010             2009
               Cancelable Operating Leases                                  $      21,959     $     20,422




13.    Other Liabilities

Other liabilities as of September 30, 2010 and 2009, totaled $170 million and $129 million,
respectively. The majority of Intragovernmental Other Liabilities are composed of monies
received from prisoner funds and certain receipts of cash that are in suspense, clearing, deposit,
or general fund accounts that are owed to the Treasury. Other Accrued Liabilities With the
Public are composed of future funded energy savings performance contracts and utilities. All
other liabilities are current and are presented in the following table.


      U.S. Department of Justice
                          These notes are an integral part of these financial statements.
                                                          -58-
13.    Other Liabilities (continued)


         As of September 30, 2010 and 2009
                                                                                     2010                   2009
         Intragovernmental
             Employer Contributions and Payroll Taxes Payable                $        52,792        $         46,239
             Other Post-Employment Benefits Due and Payable                            1,599                     891
             Other Unfunded Employment Related Liabilities                               923                     977
             Advances from Others                                                        868                   1,071
             Other Liabilities                                                        17,744                  13,481
               Total Intragovernmental                                                73,926                  62,659

         With the Public
            Other Accrued Liabilities                                                 47,300                  14,282
            Advances from Others                                                       3,949                   8,585
            Liability for Deposit Funds, Clearing
             Accounts and Undeposited Collections                                     44,889                  43,013
               Total With the Public                                                  96,138                  65,880
               Total Other Liabilities                                       $       170,064        $        128,539




14.    Contingencies and Commitments

Contingencies include various administrative proceedings, legal actions, and claims related to
contract disputes and employee and inmate claims; see Note 1.M for more details. For legal
actions where management and the Chief Counsel consider adverse decisions “probable” or
“reasonably possible” and the amounts are reasonably estimable, information is disclosed below.
The amounts as of September 30, 2010 and 2009 are presented in the following table.


                                                       Accrued                        Estimated Range of Loss
                                                      Liabilities                     Lower            Upper
          As of September 30, 2010
               Probable                           $         4,827                $          4,827       $          10,620
               Reasonably Possible                                                          4,643                   9,599

          As of September 30, 2009
               Probable                           $         4,930                $          4,930       $          11,405
               Reasonably Possible                                                          3,373                  14,057




      U.S. Department of Justice
                          These notes are an integral part of these financial statements.
                                                           -59-
15.    Earmarked Funds

The Trust Fund is a self-sustaining trust revolving fund account that is funded through the sale of
goods and services to inmates. The Trust Fund receives no appropriated funds, and the majority
of its funding is through revenues generated by the sale of merchandise and telephone services to
inmates. Regular items sold through institution commissaries are marked-up 30 percent from
their per unit cost. The Trust Fund Commissary inventories are comprised of merchandise on-
hand at reporting sites located in the United States and Puerto Rico. Inventory sales are
restricted to inmates and consist primarily of foods and beverages, hobby craft items, stamps,
clothing, health and hygiene commodities, and other sundry items. Commissary items are stated
at latest acquisition cost, which is adjusted using the CPI for the year to approximate the value of
the inventory under the FIFO accounting methodology.

Cash receipts collected from the public for an earmarked fund are deposited in the Treasury,
which uses the cash for general Government purposes. The Trust Fund invests in non-
marketable market-based Treasury securities issued by the Bureau of Public Debt. These
securities are available to the public but cannot be resold. These securities are purchased and
redeemed at par value (the value at maturity) exclusively through the Treasury’s Finance and
Funding Branch. When securities are purchased, the investment is recorded at par value.
Beginning in 1995, the Trust Fund was granted authority to invest funds in excess of operating
needs in securities guaranteed by the Treasury. Investments in U.S. Government securities are
reported at cost net of amortized discounts. Discounts are amortized into interest income over
the term of the investment. The Trust Fund’s intent is to hold investments to maturity, unless
they are needed to sustain the operations of the Trust Fund. Interest received on securities is
captured in the Trust Fund and is used to defray its general operating expenses. The following
table shows earmarked funds as of September 30, 2010 and 2009.




      U.S. Department of Justice
                        These notes are an integral part of these financial statements.
                                                        -60-
15.    Earmarked Funds (continued)


             As of September 30, 2010 and 2009
                                                                                2010             2009
                                                                            Trust Fund       Trust Fund
             Balance Sheet
             Assets
                Fund Balance with U.S. Treasury                            $       67,328    $    76,756
                Other Assets                                                       27,560         26,997
                   Total Assets                                            $       94,888    $   103,753

              Liabilities
                 Accounts Payable                                          $       12,696    $    19,165
                 Other Liabilities                                                 12,339         11,539
                     Total Liabilities                                     $       25,035    $    30,704

              Net Position
                 Cumulative Results of Operations                          $       69,853    $    73,049
                    Total Net Position                                     $       69,853    $    73,049
                    Total Liabilities and Net Position                     $       94,888    $   103,753

              Statements of Net Cost
                 Gross Cost of Operations                                  $      338,286    $   328,415
                 Less: Exchange Revenues                                          331,199        319,601
                    Net Cost of Operations                                 $        7,087    $     8,814

              Statement of Changes in Net Position
                 Net Position Beginning of Period                          $       73,049    $    78,480

                 Other Financing Sources                                            3,891          3,383
                    Total Financing Sources                                         3,891          3,383
                 Net Cost of Operations                                            (7,087)        (8,814)
                 Net Change                                                        (3,196)        (5,431)
                 Net Position at End of Period                             $       69,853    $    73,049




      U.S. Department of Justice
                           These notes are an integral part of these financial statements.
                                                           -61-
16.    Net Cost of Operations by Suborganization

The following tables show the net cost of operations for each of the BOP’s goals by
suborganization for the fiscal years ended September 30, 2010 and 2009.

      For the Year Ended September 30, 2010
                                                                          Suborganizations
                                                                  Trust Fund              BOP                Consolidated

      Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People

         Gross Cost                                           $               -     $            6,860   $            6,860
         Less: Earned Revenue                                                 -                      -                    -
         Net Cost (Revenue) of Operations                                     -                  6,860                6,860

      Goal 3: Ensure the Fair and Efficient Administration of Justice

         Gross Cost                                                     338,286             6,683,473             7,021,759
         Less: Earned Revenue                                           331,199                41,000               372,199
         Net Cost (Revenue) of Operations                                 7,087             6,642,473             6,649,560

      Net Cost (Revenue) of Operations                        $           7,087     $       6,649,333    $        6,656,420


      For the Fiscal Year Ended September 30, 2009
                                                                          Suborganizations
                                                                  Trust Fund              BOP                Consolidated

      Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People

         Gross Cost                                           $               -     $            6,987   $            6,987
         Less: Earned Revenue                                                 -                      -                    -
         Net Cost (Revenue) of Operations                                     -                  6,987                6,987

      Goal 3: Ensure the Fair and Efficient Administration of Justice

         Gross Cost                                                     328,415             6,245,200             6,573,615
         Less: Earned Revenue                                           319,601                38,000               357,601
         Net Cost (Revenue) of Operations                                 8,814             6,207,200             6,216,014

      Net Cost (Revenue) of Operations                        $           8,814     $       6,214,187    $        6,223,001




      U.S. Department of Justice
                               These notes are an integral part of these financial statements.
                                                               -62-
17.    Imputed Financing from Costs Absorbed by Others

Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e. non-reimbursed
and under-reimbursed) portion of the full costs of goods and services received by the BOP from
a providing entity that is not part of the DOJ. In accordance with SFFAS No. 30, “Inter-Entity
Cost Implementation Amending SFFAS 4, Managerial Cost Accounting Standards and
Concepts”, the material Imputed Inter-Departmental financing sources recognized by the BOP
are the actual cost of future benefits for the Federal Employees Health Benefits Program
(FEHB), the Federal Employees’ Group Life Insurance Program (FEGLI), the Federal Pension
plans that are paid by other Federal entities, and any un-reimbursed payments made from the
Treasury Judgment Fund on behalf of the BOP. The Treasury Judgment Fund was established
by the Congress and funded at 31 U.S.C. 1304 to pay in whole or in part the court judgments and
settlement agreements negotiated by the Department on behalf of agencies, as well as certain
types of administrative awards. Interpretation of Federal Financial Accounting Standards
Interpretation No. 2, “Accounting for Treasury Judgment Fund Transactions,” requires agencies
to recognize liabilities and expenses when unfavorable litigation outcomes are probable and the
amount can be estimated and will be paid by the Treasury Judgment Fund.

SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” requires that employing
agencies recognize the cost of pensions and other retirement benefits during their employees’
active years of service. SFFAS No. 5 requires OPM to provide cost factors necessary to
calculate cost. OPM actuaries calculate the value of pension benefits expected to be paid in the
future, and then determine the total funds to be contributed by and for covered employees, such
that the amount calculated would be sufficient to fund the projected pension benefits. For
employees covered by CSRS, the cost factors are 30.1 percent of basic pay for regular, 51.1
percent law enforcement officers, 23.5 percent regular offset, and 45.6 percent law enforcement
officers offset. For employees covered by FERS, the cost factors are 13.8 percent of basic pay
for regular and 29.8 percent for law enforcement officers.

The cost to be paid by other agencies is the total calculated future costs, less employee and
employer contributions. In addition, other retirement benefits, which include health and life
insurance that are paid by other Federal entities, must also be disclosed.




      U.S. Department of Justice
                        These notes are an integral part of these financial statements.
                                                        -63-
17.    Imputed Financing from Costs Absorbed by Others (continued)

Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4, “Managerial
Cost Accounting Standards and Concepts and Standards for the Federal Government,” and
FASAB Interpretation No. 6, “Accounting for Imputed Intra-Departmental Costs: An
Interpretation of SFFAS No. 4,” are the unreimbursed portion of the full costs of goods and
services received by the BOP from a providing entity that is part of the DOJ. Recognition is
required for those transactions determined to be material to the receiving entity. The
determination of whether the cost is material requires considerable judgment based on the
specific facts and circumstances of each type of good or service provided. SFFAS No. 4 also
states that costs for broad and general support need not be recognized by the receiving entity,
unless such services form a vital and integral part of the operations or output of the receiving
entity. Costs are considered broad and general if they are provided to many, if not all, reporting
components and not specifically related to the receiving entity’s output. The BOP management
had adopted FASAB Interpretation No. 6 during FY 2005 and reviews Imputed Intra-
Departmental Financing Sources quarterly to determine materiality. As of September 30, 2010
these costs are deemed immaterial and are not reported.


         For the Year Ended September 30, 2010 and 2009
                                                                              2010               2009
         Imputed Inter-Departmental Financing
            Treasury Judgment Fund                                    $             5,215    $        7,185
            Health Insurance                                                      173,302           170,766
            Life Insurance                                                            449               427
            Pension                                                                37,739            11,287
               Total Imputed Inter-Departmental                       $           216,705    $      189,665
               Total Imputed Financing                                $           216,705    $      189,665




18.    Information Related to the Statement of Budgetary Resources

Apportionment Categories of Obligations Incurred:

The apportionment categories are determined in accordance with the guidance provided in Part 4
“Instructions on Budget Execution” of OMB Circular A-11, “Preparation, Submission and
Execution of the Budget”. Category A represents resources apportioned for calendar quarters.




      U.S. Department of Justice
                           These notes are an integral part of these financial statements.
                                                           -64-
18.    Information Related to the Statement of Budgetary Resources (continued)

                                                                                                             Total
                                                                    Direct           Reimbursable         Obligations
                                                                  Obligations         Obligations          Incurred
      For the Year Ended September 30, 2010
          Obligations Apportioned Under
             Category A                                         $ 6,536,140          $       41,617      $ 6,577,757

      For the Year Ended September 30, 2009
          Obligations Apportioned Under
             Category A                                         $ 6,496,740          $       48,662      $ 6,545,402




Status of Undelivered Orders:

Undelivered Orders (UDO) represent the amount of goods and/or services ordered, which have
not been actually or constructively received. This amount includes any orders which may have
been prepaid or advanced but for which delivery or performance has not yet occurred.


               As of September 30, 2010 and 2009

                                                                           2010                   2009
                       UDO Obligations Unpaid                         $      566,953          $       793,983
                       UDO Obligations Prepaid/Advanced                           872                  (4,337)
                          Total UDO                                   $      567,825          $       789,646



Permanent Indefinite Appropriations:

A permanent indefinite appropriation is open-ended as to both its period of availability (amount
of time the agency has to spend the funds) and its amount.

Congress established the Trust Fund in 1932 to allow inmates a means to purchase additional
products and services above the necessities provided by appropriated Federal funds. The Trust
Fund is a self-sustaining trust revolving fund account that is funded through sales of goods and
services, rather than annual or no-year appropriations.




      U.S. Department of Justice
                           These notes are an integral part of these financial statements.
                                                           -65-
18.    Information Related to the Statement of Budgetary Resources (continued)

Legal Arrangements Affecting Use of Unobligated Balances:

Unobligated balances represent the cumulative amount of budget authority that is not obligated
and that remains available for obligation based on annual legislative requirements and other
enabling authorities, unless otherwise restricted. The use of unobligated balances is restricted
based on annual legislation requirements and other enabling authorities. Funds are appropriated
on an annual, multi-year, and no-year basis. Appropriated funds shall expire on the last day of
availability and are no longer available for new obligations. Unobligated balances in unexpired
fund symbols are available in the next fiscal year for new obligations unless some restrictions
had been placed on those funds by law. Amounts in expired fund symbols are not available for
new obligations, but may be used to adjust previously established obligations.

Statement of Budgetary Resources vs. the Budget of the United States Government:

The reconciliation between the Statement of Budgetary Resources and the Budget of the United
States Government for fiscal year 2009 is shown in the following table. The reconciliation as of
September 30, 2010 is not presented, because the submission of the Budget of the United States
Government (Budget) for FY 2012, which presents the execution of the FY 2010 Budget, occurs
after publication of these financial statements. The Department of Justice Budget Appendix can
be found on the OMB website (http://www.whitehouse.gov/omb/budget) and will be available in
early February 2011.


      For the Fiscal Year Ended September 30, 2009
       (Dollars in millions)
                                                                                                 Distributed
                                                          Budgetary          Obligations         Offsetting             Net
                                                           Resources             Incurred            Receipts       Outlays
      Statement of Budgetary Resources (SBR)              $     6,917        $       6,545       $          3       $   5,919


      Funds not Reported in the Budget
                  Expired Funds                                   (56)                  (9)                     -             -
                  Reconciling Item 153220(ZX)                                                               (3)               3


      Other (Rounding)                                              2                   (1)                     -             -


      Budget of the United States Government              $     6,863        $       6,535       $              -   $   5,922




      U.S. Department of Justice
                               These notes are an integral part of these financial statements.
                                                               -66-
19.    Restatements and Adjustments

Clean Up Cost Adjustments

OMB Circular No. A-136 states that the cost for any clean-up cost liability recognized upon
implementation of the FASAB Technical Reference Manual 2006-1 requiring recognition shall
be shown on the SCNP as a prior period adjustment. The BOP recognized the estimated total
clean-up cost for friable and non-friable asbestos as a liability and reported the offsetting charge
as a “Change in Accounting Principles” in the SCNP. As of September 30, 2010, BOP
management has determined their estimated asbestos clean-up liability is $36,833 thousand.


            For the Fiscal Year Ended September 30, 2010

                 Statement of Changes in Net Position                                      $   (36,833)




      U.S. Department of Justice
                         These notes are an integral part of these financial statements.
                                                         -67-
20.     Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
        Statement of Financing)

      For the Year Ended September 30, 2010 and 2009
                                                                                         2010                   2009

      Resources Used to Finance Activities

         Budgetary Resources Obligated
           Obligations Incurred                                                  $           6,577,757      $      6,545,402
           Less: Spending Authority from Offsetting Collections and
                  Recoveries                                                                   379,044               388,230
           Obligations Net of Offsetting Collections and Recoveries                          6,198,713             6,157,172
           Less: Offsetting Receipts                                                            12,666                 2,813
           Net Obligations                                                                   6,186,047             6,154,359

         Other Resources
            Donations and Forfeitures of Property                                                  340                    68
            Transfers-In/Out Without Reimbursement                                               5,394                14,773
            Imputed Financing from Costs Absorbed by Others (Note 17)                          216,705               189,665
            Net Other Resources Used to Finance Activities                                     222,439               204,506
      Total Resources Used to Finance Activities                                             6,408,486             6,358,865


      Resources Used to Finance Items not Part of the Net Cost of
         Operations
            Net Change in Budgetary Resources Obligated for Goods, Services,
               and Benefits Ordered but not Yet Provided                                        221,619                (194,930)
            Resources That Fund Expenses Recognized in Prior Periods (Note 21)                   (6,410)                 (7,144)
            Budgetary Offsetting Collections and Receipts That do not
               Affect Net Cost of Operations                                                      12,666                  2,813
            Resources That Finance the Acquisition of Assets                                    (454,738)              (375,522)
         Other Resources or Adjustments to Net Obligated
             Resources That do not Affect Net Cost of Operations                                 (36,833)                     -
      Total Resources Used to Finance Items not Part of the Net Cost
         of Operations                                                                          (263,696)              (574,783)

      Total Resources Used to Finance Net Cost of Operations                     $           6,144,790      $      5,784,082


      Components of Net Cost of Operations That Will not Require
        or Generate Resources in the Current Period

         Components That Will Require or Generate Resources
           in Future Periods (Note 21)                                           $              153,285     $          103,087

         Depreciation and Amortization                                                          356,000                333,240
         Revaluation of Assets or Liabilities                                                     2,345                  2,592
      Total Components of Net Cost of Operations That Will not
         Require or Generate Resources in the Current Period                                    511,630                438,919

      Net Cost of Operations                                                     $           6,656,420      $      6,223,001




      U.S. Department of Justice
                                 These notes are an integral part of these financial statements.
                                                                      -68-
21.    Explanation of Differences Between Liabilities Not Covered by Budgetary Resources
       and Components of Net Cost of Operations Requiring or Generating Resources in
       Future Periods

Liabilities that are not covered by realized budgetary resources and for which there is not
certainty that budgetary authority will be realized, such as the enactment of an appropriation, are
considered liabilities not covered by budgetary resources. These liabilities totaling $1,189
million and $1,042 million on September 30, 2010 and 2009 respectively, are discussed in Note
10, Liabilities not Covered by Budgetary Resources. Decreases in these liabilities result from
current year budgetary resources that were used to fund expenses recognized in prior periods.
Increases in these liabilities represent unfunded expenses that were recognized in the current
period. These increases along with the change in the portion of exchange revenue receivables
from the public, which are not considered budgetary resources until collected, represent
components of current period net cost of operations that will require or generate budgetary
resources in future periods. The changes in liabilities not covered by budgetary resources and
receivables generating resources in future periods are presented in the following table.

The BOP has authority to record budgetary resources for receivables due from the Public, which
mainly consists of state prisoner billings, before the funds are actually collected. For this reason,
the change in Exchange Revenue receivables from the Public is not presented in the following
table.

        For the Year Ended September 30, 2010 and 2009
                                                                                               2010            2009
        Resources that Fund Expenses Recognized in Prior Periods
           Other
             Decrease in Contingent Liabilities                                        $           (103)   $          -
             Decrease in Unfunded Capital Lease Liabilities                                      (6,253)         (5,779)
             Decrease in Other Unfunded Employment Related Liabilities                              (54)         (1,365)
               Total Other                                                                       (6,410)         (7,144)
               Total Resources that Fund Expenses Recognized in Prior Periods          $         (6,410)   $     (7,144)

        Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods
          Increase in Accrued Annual and Compensatory Leave Liabilities                $       6,797       $     8,225
          Increase in Environmental and Disposal Liabilities                                 39,790                  -
          Other
            Increase in Actuarial FECA Liabilities                                           66,836             78,496
            Increase in Accrued FECA Liabilities                                               6,844             9,451
            Increase in Contingent Liabilities                                                     -             1,008
            Increase in Other Liabilities                                                    33,018              5,907
              Total Other                                                                   106,698             94,862
              Total Components of Net Cost of Operations That Will Require
                or Generate Resources in Future Periods                                $    153,285        $   103,087




      U.S. Department of Justice
                             These notes are an integral part of these financial statements.
                                                             -69-
This page intentionally left blank.




               -70-
U.S. DEPARTMENT OF JUSTICE

     BUREAU OF PRISONS

      REQUIRED SUPPLEMENTARY
       INFORMATION SCHEDULES
            (UNAUDITED)




               -71-
This page intentionally left blank.




               -72-
The BOP’s deferred maintenance is immaterial. The BOP maintains maintenance schedules to
monitor the condition of its PP&E. Due to health and safety concerns for staff and inmates, the
BOP does not defer necessary maintenance.




  U.S. Department of Justice                 -73-
 Dollars in Thousands                                                                                                                        2010
                                                                                 S&E               B&F            TF                Total
 Budgetary Resources
     Unobligated Balance, Brought Forward, October 1                       $        60,428     $    269,511   $        42,112   $      372,051

     Recoveries of Prior Year Unpaid Obligations                                       6,845              -                 -               6,845

     Budget Authority
       Appropriations Received                                                    6,106,231          99,155                 -        6,205,386
       Spending Authority from Offsetting Collections
           Earned
               Collected                                                            43,476                -        330,931             374,407
               Change in Receivables from Federal Sources                           (2,273)               -            268              (2,005)
           Change in Unfilled Customer Orders
               Advance Received                                                        (203)              -              -                (203)
     Subtotal Budget Authority                                                    6,147,231          99,155        331,199           6,577,585

     Nonexpenditure Transfers, Net, Anticipated and Actual                             (818)              -                 -               (818)
 Total Budgetary Resources (Note 18)                                       $      6,213,686    $    368,666   $    373,311      $    6,955,663

  Status of Budgetary Resources

    Obligations Incurred
       Direct                                                              $      6,062,966    $    144,893   $    328,281      $    6,536,140
       Reimbursable                                                                  41,617               -              -              41,617
           Total Obligations Incurred (Note 18)                                   6,104,583         144,893        328,281           6,577,757
    Unobligated Balance - Available
      Apportioned                                                                   76,240          223,773                 -          300,013
      Exempt from Apportionment                                                          -                -            45,030           45,030
          Total Unobligated Balance - Available                                     76,240          223,773            45,030          345,043
    Unobligated Balance Not Available                                               32,863                -                 -           32,863
 Total Status of Budgetary Resources                                       $      6,213,686    $    368,666   $    373,311      $    6,955,663

 Change in Obligated Balance

    Obligated Balance, Net - Brought Forward, October 1
       Unpaid Obligations                                                   $       642,241    $    674,319   $     35,522      $    1,352,082
       Less: Uncollected Customer Payments from Federal Sources                       7,470               -            880               8,350
           Total Unpaid Obligated Balance, Net - Brought Forward, October 1         634,771         674,319         34,642           1,343,732
    Obligations Incurred, Net                                                     6,104,583         144,893        328,281           6,577,757
    Less: Gross Outlays                                                           6,036,846         360,577        340,359           6,737,782
    Less: Recoveries of Prior Year Unpaid Obligations, Actual                         6,845               -              -               6,845
    Change in Uncollected Customer Payments from Federal Sources                      2,273               -           (268)              2,005

    Obligated Balance, Net - End of Period
       Unpaid Obligations                                                          703,133          458,635            23,444        1,185,212
       Less: Uncollected Customer Payments from Federal Sources                      5,197                -             1,148            6,345
           Total Unpaid Obligated Balance, Net - End of Period             $       697,936     $    458,635   $        22,296   $    1,178,867

 Net Outlays
    Gross Outlays                                                          $      6,036,846    $    360,577   $    340,359      $    6,737,782
    Less: Offsetting Collections                                                     43,273               -        330,931             374,204
    Less: Distributed Offsetting Receipts (Note 18)                                  12,666               -              -              12,666
 Total Net Outlays (Note 18)                                               $      5,980,907    $    360,577   $         9,428   $    6,350,912




U.S. Department of Justice                                                      -74-
 Dollars in Thousands                                                                                                                        2009
                                                                                  S&E              B&F            TF                 Total

 Budgetary Resources
     Unobligated Balance, Brought Forward, October 1                          $     92,019     $    218,021   $        50,619    $      360,659

     Recoveries of Prior Year Unpaid Obligations                                    18,899                -                 -            18,899

     Budget Authority
       Appropriations Received                                                    5,600,792         575,807                 -         6,176,599
       Spending Authority from Offsetting Collections
           Earned
               Collected                                                            50,874                -        322,120              372,994
               Change in Receivables from Federal Sources                           (1,496)               -         (2,519)              (4,015)
           Change in Unfilled Customer Orders
               Advance Received                                                         352               -              -                  352
     Subtotal Budget Authority                                                    5,650,522         575,807        319,601            6,545,930

     Nonexpenditure Transfers, Net, Anticipated and Actual                           (8,035)              -                 -            (8,035)
 Total Budgetary Resources (Note 18)                                          $   5,753,405    $    793,828   $    370,220       $    6,917,453

  Status of Budgetary Resources

    Obligations Incurred
       Direct                                                                 $   5,644,315    $    524,317   $    328,108       $    6,496,740
       Reimbursable                                                                  48,662               -              -               48,662
           Total Obligations Incurred (Note 18)                                   5,692,977         524,317        328,108            6,545,402
    Unobligated Balance - Available
      Apportioned                                                                   15,063          269,511                 -           284,574
      Exempt from Apportionment                                                          -                -            42,112            42,112
          Total Unobligated Balance - Available                                     15,063          269,511            42,112           326,686
    Unobligated Balance Not Available                                               45,365                -                 -            45,365
 Total Status of Budgetary Resources                                          $   5,753,405    $    793,828   $    370,220       $    6,917,453

 Change in Obligated Balance

    Obligated Balance, Net - Brought Forward, October 1
       Unpaid Obligations                                                     $     563,504    $    531,926   $     25,072       $    1,120,502
       Less: Uncollected Customer Payments from Federal Sources                       8,966               -          3,399               12,365
           Total Unpaid Obligated Balance, Net - Brought Forward, October 1         554,538         531,926         21,673            1,108,137
    Obligations Incurred, Net                                                     5,692,977         524,317        328,108            6,545,402
    Less: Gross Outlays                                                           5,595,341         381,924        317,658            6,294,923
    Less: Recoveries of Prior Year Unpaid Obligations, Actual                        18,899               -              -               18,899
    Change in Uncollected Customer Payments from Federal Sources                      1,496               -          2,519                4,015

    Obligated Balance, Net - End of Period
       Unpaid Obligations                                                          642,241          674,319            35,522         1,352,082
       Less: Uncollected Customer Payments from Federal Sources                      7,470                -               880             8,350
           Total Unpaid Obligated Balance, Net - End of Period                $    634,771     $    674,319   $        34,642    $    1,343,732

 Net Outlays
    Gross Outlays                                                             $   5,595,341    $    381,924   $    317,658       $    6,294,923
    Less: Offsetting Collections                                                     51,226               -        322,120              373,346
    Less: Distributed Offsetting Receipts (Note 18)                                   2,813               -              -                2,813
 Total Net Outlays (Note 18)                                                  $   5,541,302    $    381,924   $        (4,462)   $    5,918,764




U.S. Department of Justice                                                    -75-
This page intentionally left blank.




               -76-
U.S. DEPARTMENT OF JUSTICE
      BUREAU OF PRISONS

   OTHER ACCOMPANYING INFORMATION
            (UNAUDITED)




                -77-
This page intentionally left blank.




               -78-
TREASURY SYMBOL MATRIX

    15101060                  Salaries and Expense
    1591060                   Salaries and Expense
    1581060                   Salaries and Expense
    1571060                   Salaries and Expense
    1561060                   Salaries and Expense
    1551060                   Salaries and Expense
    1510/111060               Salaries and Expense
    159/101060                Salaries and Expense
    158/91060                 Salaries and Expense
    157/81060                 Salaries and Expense
    156/71060                 Salaries and Expense
    155/61060                 Salaries and Expense
    154/51060                 Salaries and Expense
    15X1003                   Buildings and Facilities
    15X8408                   Revolving Trust Fund
    15X1060                   Salaries and Expense
    15X6085                   Deposit Fund (Prisoners)
    151060                    General Fund (Forfeiture Unclaimed)
    151099                    General Fund (Fines, Penalties, Forfeiture)
    153220                    General Fund (Miscellaneous Receipts)
    151210                    Conscience Fund
    151299                    Gifts to U.S.
    151435                    Miscellaneous Interest Received
    151699                    Dividends and Other Earnings
    15F3878                   Clearing Account (Budget)
    15F3879                   Clearing Account (Budget)
    15F3880                   Clearing Account (Budget)
    15F3875.10                Clearing Account (Budget)
    15X6275.10                Deposit Fund (State/Local Taxes)
    20X1807                   BOP Refund Erroneously Received
    20X6133                   BOP Payment Unclaimed Money
    15_7001                   Elimination Fund
    15_7002                   Elimination Fund




 U.S. Department of Justice
                                    -79-
PRISONER CAPACITY REQUIREMENTS

The numbers in the chart reflect the additional requested, funded, and partially funded capacity
(number of beds) required for each established facility.

Note that the estimated construction completion dates supplied below are projections, not fixed
dates. Also, once construction is completed at an institution, that institution does not
immediately begin accepting inmates, as there are necessary activation and preparatory
procedures that must be enacted beforehand.
                                    REQUESTED, FUNDED, OR PARTIALLY FUNDED CAPACITY REQUIREMENTS

                                               2011    2012    2013      2014   2015   2016    2017    2018    2019    2020     Total
ADDITIONAL CAPACITY:                                                                                                          TOTAL
FCI McDowell, WV (Medium/Camp)                 702                                                                                  702
FCI Mendota, CA (Medium/Camp)                  728      552                                                                       1,280
FCI Berlin, NH (Medium/Camp)                   488      792                                                                       1,280
USP Thomson, IL (High/Camp)                     50    1,275    375                                                                1,700
FCI Aliceville, AL (Secure Female/Low Camp)           1,792                                                                       1,792
FCI Hazelton, WV (Medium/Camp)                                 728       552                                                      1,280
FCI Standish, MI (Medium/Camp)                                 558       860                                                      1,418
USP Yazoo City, MS (High/Camp)                                           736    480                                               1,216
USP Forrest City, AR (High/Camp)                                                       256     480      480                       1,216
USP El Reno, OK (High/Camp)                                                            256     480    1,120                       1,856
USP Bennettsville, SC (High/Camp)                                                      128     480      480                       1,088
FCI Leavenworth, KS (Medium/Camp)                                                      256     600      552                       1,408
USP Letcher County, KY (High/Camp)                                                             256      480    480                1,216
USP North Central/Pekin, IL (High/Camp)                                                        256      480    480                1,216
USP Southeast (High/Camp)                                                                               736    480                1,216
USP Mid-Atlantic (High/Camp)                                                                            736    480                1,216
FCI Florida (Medium/Camp)                                                                      256      600    552                1,408
FCI South Central (Medium/Camp)                                                                         856    552                1,408
FCI Northeast (Medium/Camp)                                                                             856    552                1,408
USP Western (High/Camp)                                                                                        736      480       1,216
USP Mid-Atlantic (High/Camp)                                                                           256     480      480       1,216
FCI South Central (Medium/Camp)                                                                                856      552       1,408
FCI Western (Medium/Camp)                                                                                      856      552       1,408
USP South Central (High/Camp)                                                                                           736         736
FCI North Central (Medium/Camp)                                                                                         856         856
FCI Northeast (Medium/Camp)                                                                                             856         856
       Total                                  1,968   4,411   1,661     2,148   480    896    2,808   7,632   6,504   4,512      33,020




This exhibit includes facilities requested, funded, or partially funded capacity requirements
through September 30, 2010.




   U.S. Department of Justice

                                                                      -80-
OPERATING LEASES AS OF SEPTEMBER 30, 2010 (IN THOUSANDS)
                                                                                 Total Future
   Operating Lease Identifier                                                     Payments
   230 N First Avenue                                 Phoenix, AZ              $            759
   230 N First Avenue                                 Phoenix, AZ                           630
   255 E Temple Street                                Los Angeles, CA                        71
   501 I Street                                       Sacramento, CA                        507
   2880 Sunrise Boulevard                             Rancho Cordova, CA                    860
   7338 Shoreline Drive                               Stockton, CA                        9,564
   324 Horton Plaza                                   San Diego, CA                       1,789
   791 Chambers Road                                  Aurora, CO                            118
   1190 E Cornell Avenue                              Aurora, CO                         25,491
   320 First Street NW                                Washington, DC                     16,601
   500 First Street NW                                Washington, DC                     48,266
   100 Indiana Avenue NW                              Washington, DC                        102
   200 Constitution Avenue NW                         Washington, DC                        590
   3800 Camp Creek Parkway                            Atlanta, GA                         5,861
   450 S Federal Street                               Chicago, IL                           173
   5270 S Cicero Avenue                               Chicago, IL                         4,057
   55 E Monroe Street                                 Chicago, IL                           183
   200 W Adams Street                                 Chicago, IL                           638
   318 S Federal                                      Chicago, IL                            31
   Fourth & State Avenue                              Kansas City, KS                     3,864
   302 Sentinel Drive                                 Annapolis Junction, MD             11,372
   300 S Fourth Street                                Minneapolis, MN                       229
   1222 Spruce                                        St. Louis, MO                          99
   1222 Spruce                                        St. Louis, MO                          19
   36 E Seventh Street                                Cincinnati, OH                        477
   200 Chestnut Street                                Philadelphia, PA                    2,740
   1000 Liberty Avenue                                Pittsburgh, PA                        448
   600 Arch Street                                    Philadelphia, PA                       13
   701 Market Street                                  Philadelphia, PA                      102
   125 South 2nd Street                               Philadelphia, PA                       10
   801 Broadway                                       Nashville, TN                          22
   811 McGavock Street                                Nashville, TN                           1
   701 San Jacinto Street                             Houston, TX                           104
   701 San Jacinto Street                             Houston, TX                           362
   15431 W Vantage Parkway, Suites 200 & 205          Houston, TX                           797
   727 E Durango Boulevard                            San Antonio, TX                     1,760
   4211 Cedar Springs Road                            Dallas, TX                         10,211
   796 N Foxcroft Avenue                              Martinsburg, WV                     3,453
                                                                               $        152,374


 U.S. Department of Justice

                                               -81-
